APPENDIX

1a
APPENDIX A
_________
[PUBLISH]

IN THE UNITED STATES COURT OF APPEALS
FOR THE ELEVENTH CIRCUIT

Nos. 16-17623; 17-12163

D.C. Docket No. 1:16-cv-24275-FAM
INVERSIONES Y PROCESADORA TROPICAL
INPROTSA, S.A., a Costa Rican Corporation,
Plaintiff-Appellant,
versus
DEL MONTE INTERNATIONAL GMBH, a Swiss
Corporation,
Defendant-Appellee.
Appeals from the United States District Court
for the Southern District of Florida
(April 23, 2019)

2a
Before MARCUS, BLACK and WALKER,* Circuit
Judges.
BLACK, Circuit Judge:
Appellant Inversiones y Procesadora Tropical
INPROTSA, S.A. (INPROTSA) appeals from the
district court’s orders denying its petition to vacate
and confirming an international arbitral award
issued in favor of Appellee Del Monte International
GmbH (Del Monte). INPROTSA contends the district
court lacked subject-matter jurisdiction over its
petition to vacate the arbitral award, which Del
Monte removed from state court. It further contends
that, even if the district court had jurisdiction, the
petition to vacate should not have been dismissed on
the ground that INPROTSA failed to assert a valid
defense under the Convention on the Recognition
and Enforcement of Foreign Arbitral Awards (the
Convention). Finally, INPROTSA contends the
district court erred by granting Del Monte’s motion
to confirm the award. We affirm the district court.
I.

BACKGROUND

The MD-2 pineapple variety was developed by the
Pineapple Research Institute of Hawaii (the
Institute), an agricultural research organization that
at one point was run jointly by Del Monte, the Dole
Fruit Company (Dole), and the Maui Pineapple
Company (Maui). Dole withdrew from the Institute
before the MD-2 was created. And Maui, for its part,
played little to no role in developing the MD-2.
*

Honorable John M. Walker, Jr., Circuit Judge for the
United States Court of Appeals for the Second Circuit, sitting
by designation.

3a
Instead, the MD-2’s commercial development was
driven largely (if not solely) by Del Monte. Del Monte
initiated tests on the variety in 1980, released the
variety to its Hawaiian operations in 1981, began
selling the MD-2 in North America and Europe in
1987, and introduced the variety to Costa Rica in
1994, where it worked to adapt the MD-2 to that
country’s climate and conditions. According to Del
Monte, through its efforts, the MD-2 became the
most popular pineapple variety in the world.
Del Monte did not, however, hold a patent on the
MD-2. And given the MD-2’s commercial success, Del
Monte was not the only pineapple producer
interested in selling the variety. Indeed, Dole
commercialized the MD-2 in 2000, which prompted a
federal lawsuit from Del Monte (the Dole Litigation).
Del Monte asserted claims for unfair competition,
trade-secret violations, and conversion of vegetative
material, alleging that Dole infringed its rights by—
among other things—misappropriating knowledge
and materials Del Monte developed in Costa Rica.
The Dole Litigation eventually settled in 2002 and,
as a result, Del Monte acknowledged it did not have
the exclusive right to sell the MD-2. But before that
settlement, while the Dole Litigation was pending,
INPROTSA weighed offers from both Dole and Del
Monte to begin producing the MD-2 at its Costa
Rican plantation. In the end, INPROTSA chose to go
with Del Monte, noting among other factors that a
ruling against Dole in the Dole Litigation might
leave INPROTSA without a market for its
pineapples.

4a
In May 2001, against that backdrop, INPROTSA
and Del Monte entered into an agreement (the
Agreement) for the production, packaging, and sale
of MD-2 pineapples. Under the Agreement, Del
Monte agreed to provide INPROTSA with MD-2
seeds1 at no cost. INPROTSA, in turn, acknowledged
that Del Monte maintained ownership of all MD-2
seeds used on INPROTSA’s plantation. INPROTSA
further agreed to grow, sell, package, and deliver
MD-2 pineapples exclusively to Del Monte. The
parties also stipulated that Del Monte was “the
exclusive owner of the variety known as MD-2,” and
they agreed that if the Agreement were terminated
for any reason, including its expiration, INPROTSA
would cease producing the MD-2 and either destroy
its plant stock or return it to Del Monte.
During the 12-year term of the Agreement, Del
Monte provided tens of millions of MD-2 seeds at no
cost, and Del Monte purchased more than $200
million in pineapples from INPROTSA. After the
Agreement expired in 2013, however, INPROTSA
neither destroyed nor returned its MD-2 plant stock
to Del Monte. Instead, it sold the MD-2 pineapples to
third parties.
Del Monte initiated an arbitration against
INPROTSA in the International Court of Arbitration
of the International Chamber of Commerce (ICC) in
1

Commercial pineapples are not grown from “seeds” in the
ordinary sense of the word. They are grown by planting the
leaves from the crown of the pineapple fruit or by planting
seedlings that grow out of the pineapple plant’s stem. The term
“pineapple seeds” thus refers collectively to crowns or seedlings
that can be planted in the soil to produce new plants. It is in
this sense we use the term “seeds” in this Opinion.

5a
Miami. Del Monte alleged that INPROTSA breached
the Agreement and converted its plant stock, for
which Del Monte sought specific performance,
injunctive relief, and damages. INPROTSA
responded by arguing—among other things—that
because Del Monte did not exclusively own the MD-2
variety, which INPROTSA contended was a condition
precedent to its obligations under the Agreement,
INPROTSA was not obligated to sell exclusively to
Del Monte or return its MD-2 plant stock.
INPROTSA also contended it was fraudulently
induced to enter the Agreement by Del Monte’s false
representation that it had exclusive ownership of the
MD-2 variety.
The arbitration tribunal issued its award (the
Award) on June 10, 2016. In a thorough opinion, to
which there was a dissent,2 the tribunal ruled in
favor of Del Monte on its claim that INPROTSA
breached the Agreement. Specifically, the tribunal
concluded that Del Monte’s exclusive ownership of
the MD-2 variety (as against third parties) was not a
condition precedent to INPROTSA’s contractual
obligation to return or destroy the plants derived
from seeds Del Monte provided at no cost under the
Agreement. Thus, INPROTSA breached the
Agreement by selling, rather than returning or

2

The dissenting arbitrator would have ruled that
INPROTSA was no longer obligated to sell exclusively to Del
Monte or cease its MD-2 production once Del Monte
relinquished its claim to exclusive ownership of the MD-2
pineapple as part of the settlement in the Dole Litigation. The
dissenting arbitrator also did not agree with either the
majority’s damages award or its grant of injunctive relief.

6a
destroying, the pineapples it derived from Del
Monte’s seeds.
Further, the tribunal rejected INPROTSA’s
contention that it was fraudulently induced to enter
into the Agreement. After considering the evidence
provided by the parties, the tribunal first determined
that Del Monte’s claim to exclusive ownership of the
MD-2 was not fraudulent, because it was based on
Del Monte’s reasonable belief at the time that it had
a proprietary interest grounded in its commercial
development of the MD-2—regardless of whether it
held a patent on the variety.3 The fact that Del
Monte subsequently renounced any broader rights to
exclusive ownership of the MD-2 as against third
parties did not render any prior representations
knowingly false.
The tribunal also found that the Agreement’s
statement regarding exclusive ownership of the MD2 was not a unilateral representation proffered by Del
Monte; rather, it was a joint stipulation, accepted as
true by sophisticated parties with knowledge of both
the pineapple industry and the contested nature of
Del Monte’s claim to a proprietary interest in the
MD-2. And even if it were a false representation,
INPROTSA could not reasonably have relied on it
3

INPROTSA’s arguments on appeal rely heavily on
Magistrate Judge Simonton’s conclusion, in the context of a
discovery dispute in the Dole Litigation, that Del Monte sought
to mislead growers in Costa Rica by sending out threatening
letters implying it held a patent on the MD-2. See USDC Doc. 1
at 155–57. The tribunal specifically found, however, that “there
is no evidence or allegation that Del Monte represented to
INPROTSA that Del Monte held a patent or a trademark on the
MD-2 hybrid.” USDC Doc. 1 at 113. INPROTSA points to no
record evidence refuting that finding.

7a
because INPROTSA knew Del Monte’s claim to
exclusive ownership was contested when it entered
into the Agreement.
Finally, the tribunal determined INPROTSA was
aware of the falsity of any purported representation
by at least 2002, after which INPROTSA ratified the
Agreement:
[INPROTSA] cannot blow cold and hot
at the same time: enjoy the benefits of
the Agreement for 12 years in which it
never raised Del Monte’s supposed
fraudulent conduct, particularly after
the Settlement Agreement putting an
end to the [Dole] Litigation in 2002 . . . ,
but then seek to liberate itself under
Florida
law
from
contractual
stipulations it freely and knowingly
accepted to be bound by and enforce[d].
USDC Doc. 1 at 119–20.
The tribunal thus awarded Del Monte specific
performance, injunctive relief, damages, interest,
costs, and attorney’s fees. More specifically, it
required INPROTSA to either return or destroy 93%
of the MD-2 vegetative materials on its plantation—
which the tribunal found were attributable to the
seeds provided by Del Monte. It also enjoined
INPROTSA from selling 93% of its MD-2 pineapples
to third parties until it complied with its obligation
to destroy or return the MD-2 plant stock. With
respect to damages, the tribunal determined that,
under Florida law, Del Monte was entitled to
disgorgement of the money INPROTSA received by
selling the MD-2 pineapples to third parties in
breach of the Agreement.

8a
The tribunal recognized that the evidence on which
a damages award might be fashioned was limited.
Although it had evidence concerning INPROTSA’s
gross sales in 2014, it lacked any information
concerning INPROTSA’s sales in 2015. Likewise,
because INPROTSA refused to provide any
information about its profits or expenses during
discovery, it was impossible to calculate an award
based solely on the profits INPROTSA improperly
obtained after the expiration of the Agreement.
Thus, the tribunal concluded that, under the
circumstances and evidence provided, Del Monte’s
damages should be limited to $26.133 million— 93%
of INPROTSA’s MD-2 sales in 2014. In other words,
the tribunal refused to speculate about either
INPROTSA’s 2015 sales (which would have
increased damages) or INPROTSA’s expenses (which
would have decreased damages).
INPROTSA promptly moved for correction and
clarification of the Award under Article 35 of the ICC
rules governing the arbitration, ostensibly seeking
“to correct or clarify certain clerical, computational
or typographical errors, or errors of a similar nature,
contained in the Award.”4 USDC 1 at 190.

4

The record does not appear to contain a copy of the ICC
Arbitration Rules in force at the time. We note, however, that
the current version of the ICC Arbitration Rules provides in
Article 36(1) that “the arbitral tribunal may correct a clerical,
computational or typographical error, or any errors of similar
nature contained in an award.” ICC Arbitration Rules,
http://iccwbo.org/dispute-resolution-services/arbitration/rulesof-arbitration/#article_36 (last visited Feb. 13, 2019). We
further note that INPROTSA later contended that the
tribunal’s power to correct the award was grounded in Article

9a
INPROTSA contended the tribunal’s damages award
was erroneous as a matter of Florida law because Del
Monte did not prove the amount of INPROTSA’s
profits from the breach. According to INPROTSA,
because Del Monte provided evidence of only
INPROTSA’s revenues,5 Del Monte’s claim for
damages should have been dismissed in its entirety.
The tribunal denied the motion, concluding it
lacked authority to revisit the merits of its
substantive damages award. The tribunal reasoned
that Article 35 of the governing ICC Arbitration
Rules allowed only for interpretation of the Award or
correction of errors of the clerical, computational,
and typographical variety. Article 35 did not provide
authority to revise an Award on the merits, based on
an alleged substantive error of law.
II.

PROCEDURAL HISTORY

In September 2016, INPROTSA filed a petition to
vacate the Award in Florida’s Eleventh Judicial
Circuit. Del Monte then removed the petition to the
United States District Court for the Southern
District of Florida, citing 9 U.S.C. §§ 203 and 205, as
well as 28 U.S.C. §§ 1331 and 1441. Soon after, Del
Monte filed a combined motion to dismiss the
petition to vacate and cross-petition to confirm the
Award. INPROTSA, in turn, filed a motion to
36. See USDC Doc. 70 at 7 (“ICC Article 36(2) explicitly granted
the right to seek such a correction.”).
5

INPROTSA’s motion for clarification did not address the
tribunal’s finding that INPROTSA refused to provide Del Monte
with evidence of its expenses during discovery. Nor did it
explain why such a finding would not be relevant to Del Monte’s
purported burden to prove the amount of INPROTSA’s profits
under Florida law.

10a
remand the proceeding to state court, contending the
district court lacked subject-matter jurisdiction.
The district court granted Del Monte’s motion to
dismiss the petition to vacate and denied
INPROTSA’s motion to remand, reasoning that
INPROTSA’s petition to vacate—which was based on
Florida law—failed to assert a valid defense under
the Convention, as required by our opinion in
Industrial
Risk
Insurers
v.
M.A.N.
Gutehoffnungshütte GmbH, 141 F.3d 1434, 1446
(11th Cir. 1998). The district court did not, however,
expressly address Del Monte’s cross-petition to
confirm the Award. As a result, there were some
procedural detours that need not be recounted in
detail here. Ultimately, on limited remand from this
Court, the district court granted Del Monte’s crosspetition and confirmed the Award in a reasoned
opinion.6
The district court concluded it had subject-matter
jurisdiction under 9 U.S.C. § 203. It then determined
that INPROTSA failed to establish a valid ground for
resisting confirmation under the Convention.7
Specifically, as is relevant to the issues on appeal,
the district court rejected INPROTSA’s contention
that the Award was procured through fraud. The
district court first noted there were no arguments
being raised that the arbitration process itself “was
6

Del Monte’s motion to dismiss this appeal (Doc. 19), which
is premised on the district court’s purported failure to resolve
its cross-petition, is therefore DENIED as moot.
7

Alternatively, the district court ruled that INPROTSA was
barred from asserting defenses to confirmation because it did
not timely serve notice of its petition to vacate, as required
under 9 U.S.C. § 12.

11a
fraudulent, that the arbitration tribunal acted
fraudulently, or that the final award was procured by
fraud.” USDC Doc. 47 at 9. It continued by noting
that the tribunal reviewed the evidence submitted by
INPROTSA and determined there was no fraud.
INPROTSA could not avoid the Award simply
because it disagreed with the arbitrator’s conclusion
on that issue. Otherwise, “any losing party raising a
fraud defense in an international arbitration[] could
relitigate the issue in federal court.” Id. at 10. Such a
result itself would violate this country’s public policy
favoring arbitration as an efficient means for
resolving disputes. In the end, the district court
concluded
that
“[t]he
arbitration
panel’s
consideration and ruling on the merits of
INPROTSA’s fraud defense does not violate the most
basic notions of morality and justice requiring this
Court to deny confirmation of the arbitral award.” Id.
(quotation omitted).
INPROTSA timely appealed the district court’s
orders both dismissing its petition to vacate the
Award and granting Del Monte’s cross-petition to
confirm the Award.
III.
A. Jurisdiction

DISCUSSION

8

INPROTSA contends the district court lacked
subject-matter jurisdiction over its petition to vacate.
Its argument is based on a narrow reading of 9
U.S.C. § 203, the jurisdictional provision in the
statute
implementing
the
Convention
(the
8

We review de novo issues concerning federal subject-matter
jurisdiction. Caron v. NCL (Bahamas), Ltd., 910 F.3d 1359,
1363 (11th Cir. 2018).

12a
Convention Act), which provides that “[a]n action or
proceeding falling under the Convention shall be
deemed to arise under the laws and treaties of the
United States.” 9 U.S.C. § 203.
According to INPROTSA, we have recognized only
two causes of action under the Convention—an
action to compel arbitration and an action to confirm
an arbitral award. See Escobar v. Celebration Cruise
Operator, Inc., 805 F.3d 1279, 1286 (11th Cir. 2015)
(“To implement the . . . Convention, the Convention
Act provides two causes of action in federal court for
a party seeking to enforce arbitration agreements
covered by the . . . Convention: (1) an action to
compel arbitration in accord with the terms of the
agreement, 9 U.S.C. § 206, and (2) at a later stage,
an action to confirm an arbitral award made
pursuant to an arbitration agreement, 9 U.S.C. §
207.”); Lindo v. NCL (Bahamas), Ltd., 652 F.3d 1257,
1262–63 (11th Cir. 2011) (same); Czarina, L.L.C. v.
W.F. Poe Syndicate, 358 F.3d 1286, 1290–91 (11th
Cir. 2004) (same). Thus, INPROTSA contends,
because a petition to vacate an arbitral award is not
one of the causes of action expressly provided by the
Convention Act, it cannot be “[a]n action or
proceeding falling under the Convention.” 9 U.S.C. §
203. Consequently, a federal court cannot exercise
subject-matter jurisdiction over a petition to vacate
an arbitral award, even if the award itself falls under
the Convention.
INPROTSA nevertheless concedes the district court
had removal jurisdiction, because the subject matter
of its petition to vacate “relates to an arbitration
agreement or award falling under the Convention.” 9
U.S.C. § 205. But removal jurisdiction is not

13a
necessarily
coterminous
with
subject-matter
jurisdiction. See Cogdell v. Wyeth, 366 F.3d 1245,
1248 (11th Cir. 2004). Thus, INPROTSA contends we
must distinguish between the purportedly narrow
scope of subject-matter jurisdiction provided under §
203 and the broader scope of removal jurisdiction
provided under § 205. In other words, INPROTSA
insists that, because Congress used different
language in §§ 203 and 205, we must assume it
intended to require federal courts to remand any
“action[s] or proceeding[s]” removed under § 205 that
are not covered under § 203, which INPROTSA
contends is limited to those actions or proceedings
expressly provided by the Convention Act. We
disagree.
As an initial matter, INPROTSA incorrectly
assumes that the Convention Act provides an
exhaustive list of actions and proceedings “falling
under the Convention.” 9 U.S.C. § 203. The
Convention Act is merely a statute by which the
Convention has been implemented in this country.
See 9 U.S.C. § 201. The relevant inquiry under § 203
is not whether a particular action or proceeding is
provided by the Convention Act; it is whether the
“action or proceeding fall[s] under the Convention”
itself. 9 U.S.C. § 203. And our observation in
previous cases cited by INPROTSA—that the
Convention Act appears to expressly recognize only
two causes of action—does not resolve that inquiry.
See Escobar, 805 F.3d at 12869; Lindo, 652 F.3d at
1262–63; Czarina, 358 F.3d at 1290–91.
9

Escobar implicitly undermines INPROTSA’s interpretation
of § 203 in this case. In Escobar, the defendant removed an
action under § 205 before filing a motion to compel the case to

14a
We note further that INPROTSA acknowledged
before the district court that, “[a]lthough the
Convention does not provide grounds for vacatur, it
explicitly permits such proceedings in the countries in
which an award was rendered or whose law served
as governing law for the arbitration.” USDC Doc. 15
at 8 (emphasis added) (citing the Convention art.
V(1)(e)). Thus, INPROTSA must concede the
Convention, at the very least, contemplates and
expressly recognizes vacatur proceedings.
But even if we assume vacatur proceedings are not
expressly provided by the Convention, INPROTSA’s
argument fails because it incorrectly assumes an
action or proceeding cannot fall under a particular
body of law unless the action or proceeding is
provided by that body of law. In other words, even if
the Convention does not expressly provide a cause of
action for vacatur, an action seeking vacatur
nevertheless could fall under the Convention.
Indeed, many causes of action are provided by
statutes entirely distinct from the body of law on
which the action is based. For example, a cause of
action to vindicate certain constitutional rights is
provided by statute (e.g., 42 U.S.C. §§ 1981, 1983).
But it would be odd to suggest that an action or
proceeding seeking to vindicate constitutional rights
would not fall under the purview of the Constitution,
merely because the Constitution itself did not
expressly provide the cause of action.

arbitration. 805 F.3d at 1282–83. Under INPROTSA’s
reasoning, there would have been no jurisdiction, because the
case removed from state court was neither an action to compel
arbitration nor an action to confirm an arbitral award.

15a
In our view, an action or proceeding “fall[s] under
the Convention,” for purposes of § 203, when it
involves subject matter that—at least in part—is
subject to the Convention, such that the action or
proceeding implicates interests the Convention seeks
to protect. In practice, this will require that the case
sufficiently relate to an agreement or award subject
to the Convention, such that the agreement or award
“could conceivably affect the outcome of the case.”
Outokumpu Stainless USA, LLC v. Converteam SAS,
902 F.3d 1316, 1324 (11th Cir. 2018).
Our interpretation of § 203 is reinforced by our
understanding of § 205. Section 205 demonstrates
congressional intent to provide a federal forum for
resolving issues implicating the Convention. We
have explained that “[r]emoval jurisdiction can be
considered a ‘species’ of subject matter jurisdiction in
that it defines a federal court’s power to hear a
particular kind of case—one that was originally
brought in a state court.” Cogdell, 366 F.3d at 1248.
We agree with INPROTSA that removal jurisdiction
is not necessarily coincident with original subjectmatter jurisdiction. See id.; see also Powerex Corp. v.
Reliant Energy Servs., Inc., 551 U.S. 224, 232, 127 S.
Ct. 2411, 2417 (2007) (“[W]hen a district court
remands a properly removed case because it
nonetheless lacks subject-matter jurisdiction, the
remand is covered by [28 U.S.C.] § 1447(c) and thus
shielded from review by § 1447(d).”). But the
situations in which removal and subject-matter
jurisdiction do not line up typically involve
circumstances distinct from those presented in this
case.

16a
Indeed, district courts sometimes lack removal
jurisdiction, despite having original subject-matter
jurisdiction, because other requirements of the
removal statute are not satisfied. See Cogdell, 366
F.3d at 1248. Likewise, subsequent events might
divest a district court of its subject-matter
jurisdiction, even though the case was properly
removed under the applicable removal statute. See
Powerex, 551 U.S. at 232, 127 S. Ct. at 2417. For
example, a case may be removed on the basis of
diversity jurisdiction and then remanded later on the
ground that diversity jurisdiction was subsequently
destroyed by the addition of a non-diverse party. See
id. at 231–32, 127 S. Ct. at 2417. But INPROTSA
has provided no examples of a circumstance in which
a court had removal jurisdiction over a case for
which it lacked subject-matter jurisdiction at the
time of removal.
In this case, Congress specifically authorized
removal “[w]here the subject matter of an action or
proceeding pending in a State court relates to an
arbitration agreement or award falling under the
Convention.” 9 U.S.C. § 205. It would make little
sense for Congress to specifically authorize removal
of cases over which the federal courts would lack
subject-matter jurisdiction. It would likewise be
puzzling for Congress to provide a federal forum for a
party seeking to determine whether an international
arbitral award should be enforced, while requiring
the same litigants to remain in state court to
determine whether the same award should be
vacated under principles controlled largely by federal
law.

17a
It makes far more sense to conclude Congress
intended § 203 to be read consistently with § 205 as
conferring subject-matter jurisdiction over actions or
proceedings sufficiently related to agreements or
awards subject to the Convention. We therefore
conclude the district court had subject-matter
jurisdiction over INPROTSA’s petition to vacate the
Award.10
B. Dismissal of the Petition to Vacate11
INPROTSA next challenges the district court’s
summary dismissal of its petition to vacate on the
ground that it did not raise any of the defenses
outlined by the Convention. INPROTSA contends the
district court erred by applying our holding in
Industrial Risk—that the defenses enumerated by
the Convention provide the exclusive grounds for

10

We express no opinion on whether the Convention Act
implicitly permits a petition to vacate an international arbitral
award filed directly in the district court. See 9 U.S.C. § 204 (“An
action or proceeding over which the district courts have
jurisdiction pursuant to section 203 of this title may be brought
in any such court in which save for the arbitration agreement
an action or proceeding with respect to the controversy between
the parties could be brought, or in such court for the district
and division which embraces the place designated in the
agreement as the place of arbitration if such place is within the
United States.”). It is enough, in this case, to say that the
district court had subject-matter jurisdiction over INPROTSA’s
petition once it was removed from state court under § 205.
11

In reviewing denials of motions to vacate arbitration
awards, we review “the district court’s findings of fact for clear
error and its legal conclusions de novo.” Bamberger Rosenheim,
Ltd., (Israel) v. OA Dev., Inc., (U.S.), 862 F.3d 1284, 1286 (11th
Cir. 2017).

18a
vacating an award subject to the Convention.12 See
141 F.3d at 1446. According to INPROTSA,
Industrial Risk was both wrongly decided and
abrogated by the Supreme Court’s subsequent
decision in BG Group PLC v. Republic of Argentina,
572 U.S. 25, 44–45, 134 S. Ct. 1198, 1212–13 (2014).
As an initial matter, INPROTSA’s contention that
Industrial Risk was wrongly decided is irrelevant to
our analysis of whether we are bound by its holding
that the Convention provides the exclusive grounds
for vacating an international arbitral award. See
United States v. Steele, 147 F.3d 1316, 1317–18 (11th
Cir. 1998) (“[A] panel cannot overrule a prior one’s
holding even though convinced it is wrong.”). Under
our rule concerning prior-panel precedent, “[w]e are
bound by the holdings of earlier panels unless and
until they are clearly overruled by this court en banc
or by the Supreme Court.” Randall v. Scott, 610 F.3d
12

INPROTSA also argued, in a single footnote in its opening
brief, that the district court erred by “retroactively” applying our
precedent to a petition removed from state court. In support, it
cited a Florida case stating that state courts are not bound to
follow opinions of the lower federal courts. Br. of Appellant. at
39 n.8 (citing Pignato v. Great W. Bank, 664 So. 2d 1011, 1015
(Fla. 4th DCA 1995)). But INPROTSA provides no argument or
authority for the counterintuitive proposition that, in a nondiversity case removed from state court, a district court is free
(much less required) to disregard the precedent of the court of
appeals for the circuit in which that district court is located, on
an issue to which federal law applies. By failing to sufficiently
develop its argument on that issue in its opening brief,
INPROTSA has abandoned it. See Sapuppo v. Allstate Floridian
Ins. Co., 739 F.3d 678, 681 (11th Cir. 2014) (“We have long held
that an appellant abandons a claim when he either makes only
passing references to it or raises it in a perfunctory manner
without supporting arguments and authority.”).

19a
701, 707 (11th Cir. 2010). The relevant inquiry, then,
is whether Industrial Risk has been clearly overruled
by the Supreme Court. It has not.
“To constitute an ‘overruling’ for the purposes of
[the] prior panel precedent rule, the Supreme Court
decision ‘must be clearly on point.’” United States v.
Kaley, 579 F.3d 1246, 1255 (11th Cir. 2009) (quoting
Garrett v. Univ. of Ala. at Birmingham Bd. of Trs.,
344 F.3d 1288, 1292 (11th Cir. 2003)). Moreover, “the
intervening Supreme Court case [must] actually
abrogate or directly conflict with, as opposed to
merely weaken, the holding of the prior panel.” Id.
(emphasis added). Nothing in BG Group directly
conflicts with Industrial Risk.
In BG Group, the Supreme Court granted certiorari
to address the narrow issue of whether a particular
kind of decision by an arbitrator is entitled to
deference. See 572 U.S. at 29, 134 S. Ct. at 1203–04
(“The question before us is whether a court of the
United States, in reviewing an arbitration award
made under [an investment treaty between the
United Kingdom and Argentina], should interpret
and apply the local litigation requirement de novo, or
with the deference that courts ordinarily owe
arbitration decisions.”). The Court was not asked to
decide whether the Convention provides the
exclusive grounds for vacating awards subject to the
Convention, the parties did not brief that issue, and
the Court did not address that issue in its opinion.
Rather, the Court was asked to vacate the award
on the ground that the arbitrators “exceeded their
powers” within the meaning of 9 U.S.C. § 10(a)(4) of
the Federal Arbitration Act (FAA)—a ground not
specifically provided by the Convention. 572 U.S. at

20a
44, 134 S. Ct. at 1212. The Court reviewed the award
and refused to vacate it, concluding the arbitrators
had not “exceeded their powers.” 572 U.S. at 44–45,
134 S. Ct. at 1212–13. The Court’s reasoning in
refusing to vacate the award—that an asserted
ground for vacatur under the FAA did not apply on
the merits—does not directly conflict with Industrial
Risk’s holding that such a ground would not have
warranted vacatur because the ground is not
enumerated in the Convention.
At most, the Supreme Court’s analysis indirectly
suggests that the Convention does not supply the
exclusive grounds for vacating an international
arbitral award. See Bamberger Rosenheim, Ltd.,
(Israel) v. OA Dev., Inc., (U.S.), 862 F.3d 1284, 1287
n.2 (11th Cir. 2017) (noting the tension between
Industrial Risk and BG Group). But that is not
enough under our precedent to conclude Industrial
Risk has been overruled. See Kaley, 579 F.3d at 1255.
The district court thus did not err by dismissing the
petition to vacate, because INPROTSA did not assert
a valid defense under the Convention.13
But even if we were not bound by Industrial Risk,
the petition to vacate would warrant denial. Of the
original grounds cited in INPROTSA’s petition, it
asserts only three on appeal,14 and none supports
vacatur in this case.
13

INPROTSA conceded as much at oral argument,
acknowledging it would lose on the vacatur issue to the extent
Industrial Risk was not overruled. See Oral Argument at 10:25–
10:44.
14

INPROTSA’s petition to vacate did not purport to rely on
the FAA. Nevertheless, in response to Del Monte’s motion to
dismiss the petition, INPROTSA urged the district court to

21a
INPROTSA first contends the tribunal exceeded its
authority when it “rewrote the parties’ agreement by
reading out the ‘as long as’ language” which
INPROTSA contends “condition[ed] INPROTSA’s
agreement not to sell to third-parties [on] Del
Monte’s ‘exclusive ownership’ of the MD-2 variety.”
Br. of Appellant at 41. INPROTSA’s argument on
this issue fails because the “as long as” language to
which it refers,15 found in the Agreement’s Segunda
(Second) clause, is ambiguous as to: (1) whether it
modifies only INPROTSA’s obligation to avoid selling
to third parties; or (2) whether it also modifies
INPROTSA’s obligation to return or destroy the
plants derived from Del Monte’s MD-2 seeds upon
termination of the Agreement. The obligation to
return or destroy the plant stock derived from Del
Monte’s seeds is found in a different part of the
Agreement’s Segunda (Second) clause, and it is not
consider its arguments that the tribunal exceeded its powers
both under state law and the FAA, representing that the
grounds on which they relied were the same under either body
of law. See USDC Doc. 15 at 9 (citing 9 U.S.C. § 10). We
therefore conclude INPROTSA did not waive its arguments
under the FAA by failing to assert them first before the district
court. See Access Now, Inc. v. Sw. Airlines Co., 385 F.3d 1324,
1331 (11th Cir. 2004).
15

The tribunal based its decision on the original Agreement
as written in Spanish. But the parties submitted conflicting
translations of the Agreement’s Segunda (Second) clause in
English—neither of which was adopted by the tribunal. Under
INPROTSA’s version, the language on which it bases its
argument states: “[A]s long as [Del Monte is] the exclusive
owner[] of this variety, [INPROTSA] guarantees that it shall
only sell the MD-2 fruit grown in its farm to [Del Monte] or to
any of its affiliates, pursuant to the terms of this agreement.”
USDC Doc. 1 at 139 (emphasis added).

22a
immediately preceded by the “as long as” qualifier.16
See USDC Doc. 1 at 42–43 (Spanish), 126 (tribunal’s
interpretation),
139–40
(parties’
competing
translations).
It would make sense for Del Monte to impose these
obligations independently. For example, it would be
prudent to require INPROTSA to respect Del
Monte’s (purported) exclusive rights to the MD-2
variety, as against third parties, by requiring
INPROTSA to refrain from selling MD-2 pineapples
to such parties, “as long as” Del Monte maintained
exclusive rights to the variety. It would also make
perfect sense for Del Monte to impose an
16

According to INPROTSA’s translation, the Segunda
(Second) clause continues:
[Del Monte] shall supply the MD-2 variety seed
to [INPROTSA] in Buenos Aires de Puntarenas
and at no cost. . . . Thus, [INPROTSA]
acknowledges that the seed to be received in its
farm is exclusively owned by [Del Monte], and it
shall not make any use of it or of any other
vegetative material derived or obtained from the
planting to be developed, unless it has the prior
written consent of [Del Monte]. In this regard,
the only purpose of this pineapple purchase and
sale agreement is the production of the MD-2
variety, for its exclusive sale to [Del Monte], and
therefore, if for any reason [INPROTSA] ceases
to sell this pineapple to [Del Monte], or in the
event that the agreement is terminated for any
reason and at any time, either before or at
completion of its term, [INPROTSA] shall
immediately cease production of this variety,
pledging to destroy or return to [Del Monte] the
vegetative material owned by it.
Id. at 139–40.

23a
independent obligation on INPROTSA to avoid
selling MD-2 pineapples derived from the seeds it
provided to INPROTSA at no cost—regardless of
whether it held exclusive rights in the variety as
against third parties. Interpreting these obligations
as independent would also be consistent with the
tribunal’s observation that INPROTSA’s obligation
to return or destroy the plant stock was
acknowledged elsewhere in the contract without
referring to Del Monte’s exclusive ownership of the
MD-2 variety. See USDC Doc. 1 at 122.
It does not matter whether the tribunal’s
interpretation is correct; it is enough to note that the
“as long as” language on which INPROTSA relies
does not unambiguously condition INPROTSA’s
obligation to destroy or return the plant stock
derived from Del Monte’s seeds on Del Monte’s
maintaining exclusive ownership of the variety as
against third parties. And the tribunal at least
arguably interpreted the contract. Thus, the tribunal
did not exceed its authority. See Wiregrass Metal
Trades Council AFL-CIO v. Shaw Envt’l &
Infrastructure, Inc., 837 F.3d 1083, 1088 (11th Cir.
2016) (holding that an arbitrator does not exceed its
authority by incorrectly interpreting an ambiguous
contractual provision); Computer Task Grp., Inc. v.
Palm Beach Cty., 782 So. 2d 942, 943 (Fla. 4th DCA
2001) (“Under federal authority, which would apply
to the contract in this case, the test for whether an
arbitrator exceeds his authority is whether the
arbitrator had the power, based on the parties’
submissions or the arbitration agreement, to reach a
certain issue, not whether the arbitrator correctly
decided that issue.”).

24a
INPROTSA next contends the tribunal “exceeded
its authority by imposing its own rough sense of
justice by awarding damages far in excess of the
amount allowed by Florida law.” Br. of Appellant at
42. But the authorities on which INPROTSA relied
to establish its contention that Florida law would not
permit the award are not clearly on point—that is,
they do not deal with a disgorgement award based on
revenues where the defendant’s profits could not be
calculated because the defendant refused to provide
evidence of its expenses during discovery. See USDC
Doc. 1 at 33–34 (citing HCA Health Serv’s of Fla.,
Inc. v. Cyberknife Ctr. of Treasure Coast, LLC, 204
So. 3d 469, 470–71 (Fla. 4th DCA 2016) (dealing with
the measure of a plaintiff’s expectation damages
rather than the measure of a disgorgement award)).
INPROTSA cited no authority holding that a
disgorgement award under such circumstances
would require speculation about the amount of the
defendant’s expenses.
Moreover, under Florida law, an arbitrator’s
mistake as to the correct measure of damages would
not warrant vacatur. See Commc’ns Workers of Am.
v. Indian River Cty. Sch. Bd., 888 So. 2d 96, 99 (Fla.
4th DCA 2004) (“[T]he fact that the relief was such
that it could not or would not be granted by a court of
law or equity is not ground for vacating or refusing to
confirm the award.” (quoting Fla. Stat. § 682.13));
Computer Task Grp., 782 So. 2d at 943 (“[T]he
arbitrator had the authority to award damages
under the contract. Even if he made an error of law
in awarding some of the damages, a point we do not
decide, we do not review his errors of law, if any.”).

25a
Lastly, INPROTSA contends the tribunal exceeded
its authority by “refusing to apply the procedural
rules the parties’ [sic] had contracted for, i.e., ICC
rules, permitting corrections of awards.” Br. of
Appellant at 42. But the tribunal, “comparatively
more expert about the meaning of [its] own rule, [is]
comparatively better able to interpret and to apply
it.” Howsam v. Dean Witter Reynolds, Inc., 537 U.S.
79, 85, 123 S. Ct. 588, 593 (2002). The tribunal did
not exceed its power by reasonably construing its
own rules as barring substantive reconsideration of
the merits of its damages award.
Accordingly, the district court would not have erred
by denying INPROTSA’s petition to vacate, even if
our holding in Industrial Risk were not binding.
C. Confirmation of the Award17
Finally, INPROTSA contends the Award should not
have been confirmed, because the district court failed
to consider the merits of INPROTSA’s public-policy
defenses.18 Contrary to INPROTSA’s assertion on
this issue, the district court did, in fact, rule on the
merits of its defenses. To the extent INPROTSA
challenges the manner in which the district court

17

In reviewing a district court’s confirmation of an arbitral
award, we review its “findings of fact for clear error and its
legal conclusions de novo.” Bamberger Rosenheim, 862 F.3d at
1286.
18

Because we affirm the district court’s conclusions on the
merits of INPROTSA’s confirmation defenses, we need not
address INPROTSA’s contention that the district court erred by
concluding INPROTSA was barred from asserting defenses to
confirmation because of its alleged failure to timely serve notice
of the petition to vacate.

26a
addressed its fraud defense,19 its argument lacks
merit.
INPROTSA suggests that, because it asserted a
public-policy defense based on fraud, the district
court was required to disregard the arbitrator’s
findings and conduct its own inquiry into whether
the agreement was fraudulently induced. From that
premise, INPROTSA contends the district court
should have concluded the Award was procured by
fraud, based largely on a ruling Magistrate Judge
Simonton made in the Dole Litigation.20 We disagree.
INPROTSA’s argument hinges on dicta from a
footnote in the Supreme Court’s opinion in Scherk v.
Alberto-Culver Co., 417 U.S. 506, 519 n.14, 94 S. Ct.
2449, 2457 n.14 (1974). In Scherk, the Supreme
Court presumed without deciding that “the type of
fraud alleged” in that case21 “could be raised, under Art.
19

INPROTSA failed to develop arguments with respect to
any of its other purported defenses to confirmation. Thus, any
challenge to the district court’s conclusions on those defenses is
abandoned. See Sapuppo, 739 F.3d at 681.
20

Magistrate Judge Simonton’s finding, in the context of a
discovery dispute to which INPROTSA was not a party, that
Del Monte attempted to mislead certain Costa Rican growers
(none of whom are alleged to have been INPROTSA) by sending
out letters implying that it held a patent on the MD-2, does not
establish that the Agreement between INPROTSA and Del
Monte was fraudulently induced.
21

The issue in Scherk was whether to apply the now
overruled holding of Wilko v. Swan, 346 U.S. 427, 438, 74 S. Ct.
182, 188 (1953), that an agreement to arbitrate could not
preclude a lawsuit alleging a violation of the Securities Act of
1933, to a lawsuit brought against a foreign party that alleged
violations of Rule 10(b) of the Securities Exchange Act of 1934.
See Scherk, 417 U.S. at 509–510, 94 S. Ct. at 2452–53. Thus,
the “type of fraud alleged,” with which the Supreme Court was

27a
V of the Convention . . . in challenging the
enforcement of whatever arbitral award [was]
produced through arbitration.” The Court further
noted that “Article V(2)(b) of the Convention provides
that a country may refuse recognition and
enforcement of an award if ‘recognition or
enforcement of the award would be contrary to the
public policy of that country.’” Id. (quoting the
Convention art. V(2)(b)). Based on that language,
INPROTSA contends it is entitled to re-litigate its
fraud claim in federal court.
Even if we, like the Supreme Court in Scherk, were
to presume without deciding that a defendant can
assert a fraud-based public-policy defense to
confirmation under the Convention, it would not
allow for re-litigation of a fraudulent-inducement
claim
already
determined
through
binding
arbitration. If anything, public policy would require
the federal courts to enforce the parties’ agreement
to arbitrate that claim. See Prima Paint Corp. v.
Flood & Conklin Mfg. Co., 388 U.S. 395, 403–04, 87
S. Ct. 1801, 1806 (1967) (explaining that, where an
agreement to arbitrate is broad enough to encompass
fraudulent-inducement claims, an arbitrator must
resolve any claim that the entire contract—rather
than just its arbitration clause—was fraudulently
induced); Solymar Invs., Ltd. v. Banco Santander
S.A., 672 F.3d 981, 995 (11th Cir. 2012) (“[S]ince the
. . . allegations are more properly characterized as
concerned in Scherk, was securities fraud. See id. at 519 n.14,
94 S. Ct. at 2457 n.14. We do not interpret Scherk as suggesting
that an ordinary claim of fraudulent inducement, particularly
one resolved through binding arbitration, would raise questions
of public policy under the Convention.

28a
relating to fraud in the inducement, the issue
becomes one properly reserved for an arbitrator.”).
Moreover, we have held in the context of the FAA
that vacatur cannot be premised on a purported
fraud known at the time of the arbitration. See Scott
v. Prudential Sec., Inc., 141 F.3d 1007, 1015 n.16
(11th Cir. 1998) (“[T]he arbitrators had all the
material information before them, a fact that
precludes vacatur. . . .”), overruled in part on other
grounds by Hall Street Assocs., L.L.C. v. Mattel, Inc.,
552 U.S. 576, 585, 128 S. Ct. 1396, 1403–04 (2008);
Bonar v. Dean Witter Reynolds, Inc., 835 F.2d 1378,
1383 (11th Cir. 1988) (holding that vacatur for fraud
requires: (1) clear and convincing evidence; (2) that
the fraud must not have been discoverable with due
diligence prior to or during the arbitration; and (3)
that the fraud materially relates to an issue in the
arbitration); see also A.G. Edwards & Sons, Inc. v.
McCollough, 967 F.2d 1401, 1404 (9th Cir. 1992)
(“[W]here the fraud or undue means is not only
discoverable, but discovered and brought to the
attention of the arbitrators, a disappointed party will
not be given a second bite at the apple.”). A fraudbased defense under the Convention could not
possibly be broader than the fraud-based ground for
vacatur expressly provided by the FAA. See 9 U.S.C.
§ 10(a)(1).
On the contrary, the public-policy defense under
the Convention is very narrow. It “applies only when
confirmation or enforcement of a foreign arbitration
award would violate the forum state’s most basic
notions of morality and justice.” Bamberger
Rosenheim, 862 F.3d at 1289 n.4 (quoting Ministry of
Def. & Support for the Armed Forces of the Islamic

29a
Republic of Iran v. Cubic Def. Sys., Inc., 665 F.3d
1091, 1096–97 (9th Cir. 2011)). INPROTSA knew
about the Dole Litigation at the time it contracted
with Del Monte; therefore, enforcing the Award in
this case does not offend public policy at all, much
less meet the high threshold for such a defense to
succeed under the Convention.
IV.

CONCLUSION

The district court had jurisdiction over
INPROTSA’s petition to vacate the Award after it
was removed from state court. The petition was
appropriately dismissed for failing to assert a valid
ground for vacatur, and the district court did not err
by confirming the Award.22
AFFIRMED.

22

Del Monte’s motion for sanctions (Doc. 73) is DENIED
because INPROTSA’s appeal raises a number of non-frivolous
challenges to the district court’s orders.

30a
APPENDIX B
_________
IN THE UNITED STATES COURT OF APPEALS
FOR THE ELEVENTH CIRCUIT
No. 16-17623-AA

INVERSIONES Y PROCESADORA TROPICAL
INPROTSA, S.A., a Costa Rican Corporation,
Plaintiff-Appellant
Cross Appellee,
versus
DEL MONTE INTERNATIONAL GMBH,
a Swiss Corporation,
Defendant-Appellee
Cross Appellant.

Appeals from the United States District Court
for the Southern District of Florida
Before: MARCUS
Judges.

and

ROSENBAUM,

Circuit

BY THE COURT:
The
motion
of
Defendant-Appellee-Cross
Appellant Del Monte International GMBH (“Del
Monte”) for a limited remand of this case is
GRANTED.

31a
Plaintiff-Appellant-Cross Appellee Inversiones y
Procesadora Tropical INPROTSA, S.A. (“Inprotsa”)
has appealed from the district court’s December 6,
2016 order, which granted Del Monte’s motion to
dismiss Inprotsa’s petition to vacate an arbitration
award. The court’s order did not expressly address
Del Monte’s cross-petition to confirm the arbitration
award. Del Monte filed a motion in the district court
to clarify the order, asking the court to make clear
whether it also intended to grant the cross-petition
and confirm the award. In a February 9, 2017 order,
the district court declined to rule on that motion,
concluding that it lacked jurisdiction over the motion
because Inprotsa had already filed this appeal. Del
Monte now asks us to remand this case so that the
district court can resolve the pending motion for
clarification.
We express no opinion as to whether the district
court’s December 6 order resolved Del Monte’s crosspetition to confirm the arbitration award. Whether or
not it did so, this case is due to be remanded. On the
one hand, if the order did in fact grant the crosspetition to confirm the award, then it is a final,
appealable order. See World Fuel Corp. v. Geithner,
568 F.3d 1345, 1348 (11th Cir. 2009). In that case,
Del Monte’s motion for clarification was effectively a
Rule 59(e) motion to alter or amend the judgment.
See Fed. R. Civ. P. 59(e). As such, the motion must be
resolved before we can exercise jurisdiction over the
appeal. See Fed. R. App. P. 4(a)(4)(B). This is so even
though Inprotsa’s notice of appeal was filed before
Del Monte’s motion. See Stansell v. Revolutionary
Armed Forces of Colombia, 771 F.3d 713, 745-46
(11th Cir. 2014). Notably, the district court’s order of

32a
February 9, 2017 did not resolve the motion for
clarification; rather, that order expressly declined to
do so.
On the other hand, if, as Del Monte urges, the
December 6 order did not resolve the cross-petition to
confirm, then the order is not final. See Supreme
Fuels Trading FZE v. Sargeant, 689 F.3d 1244, 124546 (11th Cir. 2012). In that case, the order either is
appealable as an interlocutory order, or it is not
appealable. See id. If it is appealable as an
interlocutory order, then the analysis is the same as
if the order were final: we lack jurisdiction over the
appeal until the district court resolves the motion for
clarification. See Fed. R. Civ. P. 59(e); Fed. R. App. P.
4(a)(4)(B). By contrast, if the order did not resolve
the cross-petition and is not appealable as an
interlocutory order, then it is not appealable at all.
See 28 U.S.C. § 1291.
In sum, in any event, this case is due to be
remanded. Accordingly, we hereby remand this case
to the district court, so that the court may resolve
Del Monte’s December 8, 2016 motion for
clarification of the court’s December 6 order. After
the district court resolves that motion, the case
should be returned to this Court for further
proceedings.

33a
APPENDIX C
_________
UNITED STATES DISTRICT COURT FOR THE
SOUTHERN DISTRICT OF FLORIDA
Miami Division
Case Number: 16-24275-CIV-MORENO
INVERSIONES Y PROCESADORA
TROPICAL INPROTSA, S.A., a Costa Rican
Corporation,
Petitioner,
vs.
DEL MONTE INTERNATIONAL GMBH, a
Swiss Corporation,
Respondent.
/
ORDER GRANTING MOTION TO DISMISS
AND DENYING MOTION FOR REMAND
THIS CAUSE came before the Court upon Motion
to Dismiss and Cross-Petition to Confirm Final
Arbitral Award (D.E. 6), filed on October 11, 2016
and Plaintiff’s Motion for Remand (D.E. 13) filed on
October 21, 2016.
THE COURT has considered the motions, the
responses, the pertinent portions of the record, and
being otherwise fully advised in the premises, it is

34a
ADJUDGED that the motion to dismiss the
Petition to Vacate Final Arbitral Award is
GRANTED and the Petition to Vacate Final Arbitral
Award is DISMISSED. In the Eleventh Circuit, the
only grounds to vacate a non-domestic arbitration
award are set forth in Article V of the New York
Convention. See Indus. Risk Insurers v. M.A.N.
Gutehoffnungshutte GmbH, 141 F.3d 1434, 1446
(11th Cir. 1998). Petitioner does not rely upon any of
the New York Convention defenses in seeking to set
aside the final arbitral award. Rather, Petitioner
seeks to vacate the award based on Florida law
governing domestic arbitrations, which is not the
case here. Both sides here are foreign corporations
and the dispute involves property located abroad and
performance or enforcement abroad. Having failed
to raise any New York Convention defenses, the
Court grants the motion to dismiss the petition to
vacate the arbitral award. See also Costa v. Celebrity
Cruises, Inc., 768 F. Supp. 2d 1237 (S.D. Fla. 2011)
(dismissing petition to vacate arbitral award). It is
ADJUDGED that all other pending motions are
DENIED as moot.
DONE AND ORDERED in Chambers at Miami,
Florida, this 5th of December 2016.
/s/ Federico A. Moreno
FEDERICO A. MORENO
UNITED STATES
DISTRICT JUDGE
Copies furnished to:
Counsel of record

35a
APPENDIX D
_________
UNITED STATES DISTRICT COURT FOR THE
SOUTHERN DISTRICT OF FLORIDA
Miami Division
Case Number: 16-24275-CIV-MORENO
INVERSIONES Y PROCESADORA
TROPICAL INPROTSA, S.A., a Costa Rican
Corporation,
Petitioner,
vs.
DEL MONTE INTERNATIONAL GMBH, a
Swiss Corporation,
Respondent.
/
ORDER GRANTING CROSS-PETITION TO
CONFIRM THE ARBITRAL AWARD
On December 6, 2016, this Court dismissed
Inversiones y Procesadora Tropical INPROTSA,
S.A.’s petition to vacate an Arbitral Award.
INPROTSA, S.A. appealed that order to the Eleventh
Circuit Court of Appeals. The Eleventh Circuit
issued a limited remand requesting this Court rule
on Del Monte International GmbH’s cross-petition to
confirm the arbitral award. The issues presented on
the limited remand include whether the Court has
jurisdiction, whether the cross-petition should be
confirmed on the merits, and whether INPROTSA is
timely raising affirmative defenses to the crosspetition. Having reviewed the issues, the Court finds
there is jurisdiction over the cross-petition to confirm

36a
the arbitral award.
This Court also finds
INPROTSA has not overcome the presumption in
favor of confirming arbitration awards and
INPROTSA’s arguments are untimely. Accordingly,
the Court grants Del Monte’s cross-petition to
confirm the arbitral award.
THIS CAUSE came before the Court upon the
Cross-Petition to Confirm the Arbitral Award.
THE COURT has considered the motion, the
response, the pertinent portions of the record, and
being otherwise fully advised in the premises, it is
ADJUDGED that the cross-petition to confirm the
arbitral award is GRANTED.
I.

PROCEDURAL BACKGROUND

Petitioner, Inversiones y Procesadora Tropical
INPROTSA, S.A., filed a petition to vacate an
arbitral award in state court. Respondent, Del
Monte International, GmbH, removed the case to
this Court on October 7, 2016. Petitioner moved for
remand to state court. Respondent moved to dismiss
the petition to vacate the arbitral award and
requested the Court confirm the arbitral award.
On December 6, 2016, the Court entered an Order
dismissing the petition to vacate and denying all
pending motions as moot. The Petitioner appealed
and the Respondent moved for clarification as to
whether the dismissal of the petition to vacate meant
that the Court was confirming the arbitral award.
Due to INPROTSA’s Notice of Appeal, the Court
denied the motion for clarification because it was
divested of jurisdiction.

37a
The Eleventh Circuit issued a Limited Remand
requesting this Court decide whether to confirm the
arbitration award.
II.

FACTUAL BACKGROUND

The underlying arbitration arose out of an
exclusive Pineapple Sales Agreement entered
between the parties in May 2001. Del Monte claimed
INPROTSA breached the agreement by selling
pineapples originating from Del Monte’s seeds to
competitors. In March 2014, Del Monte commenced
the arbitration proceedings before the International
Court of Arbitration of the International Chamber of
Commerce as required by the Agreement’s
arbitration clause. On June 10, 2016, the arbitrator
issued a final award in favor of Del Monte in a 48page order. In addition to specific performance and
injunctive relief, the arbitrator ordered INPROTSA
to pay Del Monte $26,133,000, plus pre and postaward interest, arbitral costs in the amount of
$650,000 and attorney’s fees in the amount of
$2,507,440.54.
III.
A.

LEGAL ANALYSIS

Jurisdiction

Although this case is on a limited remand to decide
whether to confirm the arbitral award, the Petitioner
is raising the issue of whether the federal court has
subject matter jurisdiction under the Convention on
the Recognition and Enforcement of Foreign Arbitral
Awards (the “New York Convention”). “Federal
courts operate under a continuing obligation to
inquire into the existence of subject matter
jurisdiction whenever it may be lacking.
That
obligation continues through every stage of a case

38a
even if no party raises the issue.”
RES-GA
Cobblestone, LLC. v. Blake Constr. & Dev., LLC, 718
F.3d 1308, 1313 (11th Cir. 2013).
Respondent removed this case on the basis that
Section 203 of the Federal Arbitration Act provides
jurisdiction.
That section states lain action or
proceeding falling under the New York Convention
shall be deemed to arise under the the (sic) laws and
treaties of the United States. The district courts of
the United States . . . shall have original jurisdiction
over such an action or proceeding, regardless of the
amount in controversy.” 9 U.S.C. § 203.
Petitioner, INPROTSA, contends this Court does
not have original subject matter jurisdiction over its
petition to vacate, arguing that § 203 of the Federal
Arbitration Act provides for jurisdiction only over
petitions to compel arbitration or to confirm an
arbitral award, and not over petitions to vacate an
arbitral award. In making this argument, Petitioner
relies on Ingaseosas Int’l Co. v. Aconcagua Investing,
Ltd., No. 09-23078-CIV-HUCK, 2011 WL 500042 at
*3 (S.D. Fla. Feb. 10, 2011), where Judge Huck found
there was no subject matter jurisdiction over a
motion to vacate an arbitral award pursuant to the
New York Convention. Id. (citing Yusuf Ahmed
Alghanim & Sons, W.L.L. v. Toys “R” Us, Inc., 126
F.3d 15, 22 (2d Cir. 1997)).
The reasoning
underlying the Ingaseosas decision is that the New
York Convention explicitly regulates only two types
of proceedings — (1) for an order confirming an
arbitration award (9 U.S.C. § 207) and (2) for orders
compelling arbitration pursuant to an agreement (9
U.S.C. § 206).

39a
In Ingaseosas, the court distinguished Industrial
Risk Insurers v. M.A.N. Gutehoffnungshutte GmbH,
141 F.3d 1434, 1441 (11th Cir. 1998), where the
Eleventh Circuit heard an appeal regarding a motion
to vacate an arbitral award pursuant to the
Convention. Ingaseosas states: “it is evident from
the Eleventh Circuit’s decision, and the utter
absence of discussion regarding its subject matter
jurisdiction to hear a motion to vacate pursuant to
the Convention, that the Eleventh Circuit’s subject
matter jurisdiction derived not from the motion to
vacate, but from the underlying motion to confirm
the arbitral panel’s award.” Ingaseosas, 2011 WL
5000042 at *4 (distinguishing Industrial Risk
Insurers).
Following Ingaseosas 1 , however, the Eleventh
Circuit in Costa v. Celebrity Cruises, Inc., 470 F.
App’x. 726 (11th Cir. 2012) affirmed the district
court’s denial of a motion to vacate an arbitration
award. In the underlying case, Costa v. Celebrity
Cruises, Inc., 768 F. Supp. 2d 1237 (S.D. Fla. 2011),
Judge Ungaro exercised jurisdiction over a motion to
vacate an arbitration award finding the New York
Convention and Chapter 2 of the Federal Arbitration
Act exclusively govern arbitration between a citizen
of the United States and citizens of foreign country.
Id. (citing 9 U.S.C. § 207). In Costa, the district
1

The Eleventh Circuit affirmed Ingaseosas on other grounds,
finding that subsequent events made it impossible for the
district court to grant effective relief “and thus the case is
moot.” Ingaseosas Intl Co. v. Aconcagua Investing, Ltd, 479 F.
App’x 955, 958 (11th Cir. 2012). The Eleventh Circuit did not
address Ingaseosas finding that subject matter jurisdiction was
lacking over vacatur actions.

40a
court determined that the only potential grounds for
vacating the arbitration award are the seven
defenses enumerated in the New York Convention.
Finding none of the defenses applied, Judge Ungaro
dismissed the motion to vacate the arbitration
award. In a per curiam opinion, the Eleventh Circuit
affirmed.
Despite Costa, the Petitioner INPROTSA is asking
this Court to follow Ingaseosas and find there is no
subject matter jurisdiction to hear a motion to vacate
an arbitration award. It seems INPROTSA is asking
the Court to split hair — finding jurisdiction is only
proper if asked to confirm an award, but not if there
is a motion to vacate the same award. INPROTSA
also relies on an earlier Eleventh Circuit case,
Czarina LLC v. WF Poe Syndicate, 358 F.3d 1286
(11th Cir. 2004), which held the New York
Convention applied solely to those actions seeking to
compel arbitration pursuant to 9 U.S.C. § 206 or to
confirm an arbitration award pursuant to 9 U.S.C. §
207.
In Czarina, however, the party seeking
confirmation of the arbitral award failed to present
proof of a written arbitration agreement, which was
a prerequisite to any action to enforce an arbitral
award pursuant to the New York Convention. The
Eleventh Circuit found that because a party failed to
meet the agreement-in-writing prerequisite, the
district court lacked subject matter jurisdiction to
enforce the award. Czarina does not stand for the
limiting proposition that INPROTSA is urging the
Court to adopt—that the Federal Arbitration Act
only provides original jurisdiction over actions to
compel arbitration and actions to confirm arbitration
awards under the New York Convention.
In

41a
Czarina, the Eleventh Circuit did not analyze
whether a federal court has subject matter
jurisdiction under § 203 to adjudicate motions to
vacate an arbitration award falling under the
Convention.
Many federal courts, including this Court, have
found jurisdiction over vacatur actions under § 203 of
the New York Convention. Cvoro v. Carnival Corp.,
2017 WL 216020 (S.D. Fla. Jan. 17, 2017) (finding
vacatur actions are proper under the New York
Convention and that a district court has subject
matter jurisdiction under 9 U.S.C. § 203 to consider a
petition to vacate under the Convention);
Scandinavian Reinsurance Co., Ltd. v. Saint Paul
Fire and Marine Ins. Co., 668 F.3d 60, 71 (2d Cir.
2012) (“the district court had subject matter
jurisdiction under 9 U.S.C. § 203, which provides
federal jurisdiction over actions to confirm or vacate
an arbitral award that is governed by the [New York
Convention].”); Oilmar Co., Ltd. v. Energy Transport
Ltd., No. 03—CV-1121, 2014 WL 8390659, *2 (D.
Conn. Oct. 6, 2014) (“Subject-matter jurisdiction is
conferred by section 203 of title 9 of the United
States Code, which provides federal jurisdiction over
actions to confirm or vacate an arbitration award
governed by the [New York Convention.]”); Zurich
Am. Ins. Co. v. Team Tankers, A.S., No. 13-2945803CIV, 2014 WL 2945803, *3 (S.D.N.Y. June 30, 2014),
aff’d 811 F.3d 584 (2d Cir. 2016) (“Federal courts
have subject matter jurisdiction over petitions to
confirm or vacate awards that are governed by the
New York Convention.”). Consistent with this
precedent, the Court finds there is federal
jurisdiction over this petition to vacate, which was

42a
removed to this Court and the subsequent crosspetition to confirm the arbitral award.
B.

Cross-Petition to Confirm Arbitral Award

On December 6, 2016, this Court dismissed the
petition to vacate the arbitral award finding that
Petitioner did not assert any grounds to vacate a
non-domestic arbitration award as set forth in
Article V of the New York Convention. The petition
was based on Florida law. Although the Court
dismissed the petition to vacate the arbitral award,
the Court did not explicitly rule on the pending
cross-petition to confirm it. INPROTSA appealed the
dismissal of the petition to vacate and the
Respondent Del Monte sought clarification of the
Court’s order regarding the cross-petition to confirm.
The Court denied the motion for clarification finding
the notice of appeal divested it of jurisdiction. The
Eleventh Circuit granted a limited remand for the
Court to consider the merits of the cross-petition to
confirm the arbitral award.
1.

Legal Standard

To obtain recognition and enforcement of a final
arbitration award, Del Monte must supply: (a) the
duly authenticated original award or a duly certified
copy thereof; (b) the original agreement referred to in
article II or a duly certified copy thereof. Art. IV(1),
New York Convention. Del Monte provided certified
copies of the Final Award and Agreement in its
petition to confirm the arbitration award. The Court
must “confirm the [Final Award] unless it finds one
of the grounds for refusal or deferral of recognition or
enforcement of the award specified in the said [New
York] Convention” under Article V. 9 U.S.C. § 207;
Indus. Risk Insurers, 141 F.3d at 1442. Pursuant to

43a
the New York Convention, “[r]ecognition and
enforcement of the award may be refused, at the
request of the party whom it is invoked” if the
“recognition or enforcement of the award would be
contrary to the public policy” of the country where
confirmation is sought. Article V(2)(b), New York
Convention.
There is a “high threshold required to overturn an
arbitration
award
under
the
[New
York
Convention].” Sural v. Gov’t of Trinidad & Tobago,
No. 15-22825-CIV-MOORE, 2016 WL 4264061, at *5
(S.D. Fla. Aug. 12, 2016). “Because the [Federal
Arbitration] Act creates a ‘presumption in favor of
confirming arbitration awards,’ judicial review of
arbitral decisions is limited and a court ‘must give
considerable leeway to the arbitrator, setting aside
his or her decision only in certain narrow
circumstances.” Gerson v. UBS Fin. Serv. Inc., No.1222087-CIV-MORENO, 2012 WL 3962374, *2 (S.D.
Fla. Sept. 10, 2012) (internal citations omitted). An
arbitral tribunal’s findings and rulings “may not be
subject to interference” simply because the losing
party believes the tribunal reached the wrong result,
or even if the tribunal did indeed reach the wrong
result. Chelsea Football Club, Ltd. v. Mutu, 849 F.
Supp. 2d 1341, 1344 (S.D. Fla. 2012).
“An
arbitrator’s result may be wrong; it may appear
unsupported; it may appear poorly reasoned; it may
appear foolish. Yet, it may not be subject to court
interference.’” Id. (quoting Delta Air Lines v. Air
Line Pilots Ass’n, Int’1, 861 F.2d 665, 670 (11th Cir.
1988)). The Eleventh Circuit has also noted that
“‘[t]he Convention’s public policy defense should be
construed narrowly’ and applies where enforcement

44a
[of] the award ‘would violate the forum state’s most
basic notions of morality and justice.’” Costa, 768 F.
Supp. 2d at 1241 (quoting Parsons & Whittemore
Overseas Co., Inc. v. Societe Generale de L ‘Industrie
du Papier, 508 F.2d 969, 974 (2d Cir. 1974)).
2.

Summary of the Parties’ Positions

INPROTSA opposes the confirmation of the
arbitral award arguing that the underlying premise
of the arbitrator’s decision is based on fraud. In the
agreement, the parties “stipulated” that Del Monte
owned the MD-2 pineapple variety. INPROTSA
claims it only stipulated to that fact because Del
Monte had falsely represented that it owned the MD2 variety in letters to Costa Rican growers. A year
after INPROTSA and Del Monte entered the
agreement containing the stipulation, Judge
Simonton in litigation between Del Monte and Dole
held that Del Monte “knew that it did not have a
patent on the MD-2 pineapple.” Specifically, Judge
Simonton found that the letters were “attempts by
Del Monte to mislead growers in Costa Rica and in
other places into believing that Del Monte had a
United States patent on the MD-2 pineapple when
Del Monte knew that it did not have one,” and
implying it would take legal action to protect the
allegedly patented MD-2 pineapples. In this case,
INPROTSA claims the arbitration award should not
be confirmed because it is based on a stipulation that
Del Monte procured through fraud. The arbitral
tribunal had the benefit of Judge Simonton’s findings
in the Del Monte-Dole litigation.
INPROTSA also objects to the confirmation of the
arbitral award claiming its due process rights were
violated when the arbitrator failed to give probative

45a
value to a letter from Fernando Baeza Melendez, a
key witness who did not testify before the tribunal.
Fernando Baeza Melendez, formerly INPROTSA’s
general manager, signed the agreement with Del
Monte. Baeza’s letter to the arbitral tribunal states
he was unaware that Del Monte was not the
exclusive owner of the MD-2 variety. Rather than
rely on Baeza’s letter, the arbitrator relied on the
other witness testimony in issuing its award.
INPROTSA’s final objection is that the award is
contrary to notions of justice because it requires
INPROTSA to return or destroy INPROTSA’s own
property.
The arbitral tribunal concluded that
INPROTSA acquired title to MD-2 seeds that Del
Monte had provided over the years pursuant to the
parties’ agreement.
In response to INPROTSA’s allegations of fraud,
Del Monte argues the arbitral tribunal specifically
held that the parties’ agreement was not procured by
fraud.
Second, Del Monte asserts the arbitral
tribunal admitted the Baeza letter into evidence over
its objections, but found that the letter lacked
probative value and was contradicted by live witness
testimony. Third, Del Monte argues the arbitral
tribunal’s legal conclusion regarding the restrictive
convenant does not amount to a violation of public
policy. Finally, Del Monte argues that INPROTSA’s
petition to vacate is time-barred by the three-month
statute of limitation imposed by 9 U.S.C. § 12 and
therefore, all of INPROTSA’s defenses to
confirmation are also barred as a matter of law.

46a
3.

Is INPROTSA’s fraud defense a valid public
policy defense?

There is no argument that the two-year arbitration
process was fraudulent, that the arbitration tribunal
acted fraudulently, or that the final award was
procured by fraud. Rather, the parties dispute
whether the arbitration tribunal addressed the
question of whether the parties’ underlying
agreement was procured by fraud. A review of the
arbitration tribunal’s decision shows that it
addressed the issue. It stated: “there is no evidene
(sic) of actual conduct by Del Monte toward
INPROTSA aimed at fraudulently inducing
[INPROTSA] to enter into the Agreement or causing
it to accept clauses . . ..” Final Award at ¶ 61. The
arbitration panel also was aware of the Del MonteDole litigation.
It stated: “The mere fact that
INPROTSA was aware of the Del Monte-Dole
litigation while it was deciding to enter or not into
the Agreement shows that issues regarding Del
Monte’s proprietary rights on the MD-2 hybrid were
controverted. . . Therefore, Del Monte did not
fraudulently misrepresent the exclusive nature of
such rights.” Final Award at ¶ 51.
INPROTSA is asking this Court to rehash a losing
argument before the arbitration panel. Given the
legal standard and the summary proceedings to
confirm arbitral awards, the Court will not overrule
the arbitrator. It is well-settled that limited and
circumscribed review of arbitral awards advances the
“policy of expedited judicial action because they
prevent a party who has lost in the arbitration
process from filing a new suit in federal court and
forcing relitigation of those issues.” Booth v. Home

47a
Publishing, Inc., 902 F.2d 925, 932 (11th Cir. 1990).
The arbitration panel’s consideration and ruling on
the merits of INPROTSA’s fraud defense does not
violate the “most basic notions of morality and
justice” requiring this Court to deny confirmation of
the arbitral award. The arbitration tribunal ruled on
the merits and simply disagreed with INPROTSA
that there was fraud in the inducement. To rule
otherwise would mean that any losing party raising
a fraud defense in an international arbitration, could
relitigate the issue in federal court. That certainly
violates the presumption in favor of confirming
arbitral awards.
4.

Did the arbitration tribunal’s treatment of the
letter violate INPROTSA’s due process rights?

INPROTSA argues the award is contrary to public
policy because its due process rights were violated
when the arbitral tribunal did not attribute
probative value to Baeza’s letter. INPROTSA elected
not to call Baeza as a witness, even though he
negotiated and signed the agreement on behalf of the
company.
The procedural rules governing the
arbitration required the parties to file a witness list
in advance of the hearing. INPROTSA did not list
Baeza. The rules prohibited parties from submitting
witness testimony unless they pre-filed the direct
testimony in the form of a signed and sworn witness
declaration. Baeza did not sign a witness declaration.
All witnesses that presented evidence by way of
declaration had to be presented for crossexamination at the final hearing. Baeza was not
made available for cross-examination. INPROTSA
attached Baeza’s letter to another witness’

48a
declaration, which was given to the arbitration
tribunal with the final pre-hearing brief.
In another procedural order, the arbitral tribunal
retained the discretion to decide the admissibility
and weight of evidence. At the final hearing, Del
Monte objected to the admissibility of the Baeza
letter because Baeza was not listed as a witness, did
not submit a sworn declaration, and the letter was
unsworn and not authenticated. The arbitration
tribunal overruled Del Monte’s objections and
admitted the letter. The arbitral tribunal attributed
it no probative value as it conflicted with other
witness testimony that was live at the final hearing.
Specifically in the arbitral award, the tribunal relied
on live testimony from INPROTSA’s production
manager, Jose Nixon Jimenez Castillo, who said that
he was aware of the Del Monte/Dole litigation, which
the pineapple industry followed, and that he
specifically discussed the litigation with members of
INPROTSA’s management including Baeza. See
Arbitral Award at ¶ 51 (D.E. 6-4).
Evidentiary decisions are not grounds to refuse
confirmation of an arbitral award under the New
York Convention’s public policy defense.
See
Unrvneshprom State Foreign Econ. Enter. v.
Tradeway, Inc., No. 95-CV-10278, 1996 WL 107285,
at *6 (S.D.N.Y. Mar. 12, 1996) (stating an
arbitrator’s “refusal to consider evidence of [a
party’s] counterclaims” does not “satisfy the narrow
scope of the Article V(2)(b) defense under the United
States public policy.”); see also Costa, 768 F. Supp. 2d
at
1241
(“Erroneous
legal
reasoning
or
misapplication of the law is generally not a violation
of public policy within the meaning of the . .

49a
.Convention.”) (quoting Karaha Bodas Co., LLC v.
Perussahaan Pertambanguan Minyak Dan Gas Bumi
Negara, 364 F.3d 274, 306 (5th Cir. 2004)). The
Court will not second-guess the decision of the
arbitral tribunal to attribute no probative value to
Baeza’s letter and overrules INPROTSA’s objection
on this issue.
5.

Does the award’s requirement that INPROTSA
return property violate notions of justice?

INPROTSA argues the award is contrary to
“notions of justice” because it requires it to return its
property to Del Monte.
Although the arbitral
tribunal found that INPROTSA had title to the
seeds, it required INPROTSA to return or destroy
the seeds. In so holding, the arbitral tribunal
enforced the agreement’s restrictive covenants and
found legal “title” irrelevant.
The parties
contractually agreed to restrict the use of the
property, the seeds, regardless of who technically
owns them. INPROTSA had agreed to the restrictive
covenants in exchange for Del Monte supplying
INPROTSA with 61 million scarce MD-2 seeds.
The Court overrules INPROTSA’s objection finding
that the arbitral tribunal was giving effect to the
parties’ agreement. Interpreting the language of the
agreement’s restrictive covenants is within the legal
authority of the arbitral tribunal and is not contrary
to “notions of justice.”
6.

Does the statute of limitations preclude
INPROTSA from opposing the cross-petition
to confirm?

Del Monte raises the argument that the statute of
limitations precludes INPROTSA from opposing the

50a
cross-petition to confirm the arbitral award.
Petitioner filed the petition within the three-month
window, but Del Monte claims it was not served
within that time-frame. 9 U.S.C. § 12 provides that
“[n]otice of a motion to vacate, modify, or correct an
award must be served upon the adverse party or his
attorney within three months after the award is filed
or delivered.” In this case, INPROTSA says it
provided notice to the attorney of record, which is
sufficient under the Federal Arbitration Act.
The service requirements for a petition to vacate an
arbitral award will differ depending on whether the
prevailing party is a resident of the district or a nonresident. 9 U.S.C. § 12. Del Monte is a Swiss
corporation, with a principal place of business in
Monaco. INPROTSA does not dispute that it failed to
serve its petition to vacate pursuant to Rule 4, Fed.
R. Civ. P., as required by this Court for a
“nonresident.” Americatel El Salvador, S.A. de C. V.
v. Compania de Telecomunicaciones de El Salvador,
S.A. de C.V., No. 07-21940-CIV-MORENO, 2007 WL
2781057, *1-2 (S.D. Fla. Sept. 19, 2007) (holding
service by FedEx and without a summons was
insufficient under 9 U.S.C. § 12 and Rule 4, Fed. R.
Civ. P.).
INPROTSA argues that Del Monte, a Swiss
corporation with its headquarters in Monaco, is
deemed a “resident” under 9 U.S.C. § 12 because it
participated in an arbitration final hearing in Miami,
Florida, citing Possehl, Inc. v. Shanghai Hia Xing
Shipping, No. 00-CV-5157, 2001 WL 214234
(S.D.N.Y. Mar. 1, 2001), and Escobar v. Shearson
Lehman Hutton, Inc., 762 F. Supp. 461 (D.P.R. 1991).

51a
The Court declines to follow Possehl and Escobar.2
See Americatel El Salvador, S.A., 2007 WL 2781057
at *1-2; Technologists, Inc. v. Mir’s Ltd., 725 F. Supp.
2d 120, 122, 125-27 (D.D.C. 2010) (despite
arbitration being conducted in Washington, D.C.,
holding that petition to vacate international arbitral
award must be served pursuant to Rule 4 to comply
with the nonresident provision of 9 U.S.C. § 12); see
also Belz v. Morgan Stanley Smith Barney, LLC, No.
13-CV-636, 2014 WL 897048, *4-7 (M.D. Fla. Mar. 6,
2014) (holding in a removed case from state court
that motion to vacate arbitral award was timebarred due to failure to strictly comply with service
requirements under 9 U.S.C. § 12, and that actual
notice through email to counsel was insufficient to
cure the defect).
In this case, INPROTSA filed the petition to vacate
within the three-month limitations period, but did
not timely serve the petition. Having found that
INPROTSA failed to effect timely service, the
question then is whether the failure to timely serve
bars INPROTSA now “from raising the alleged
invalidity of the awards as a defense in opposition to
a motion . . . to confirm the award.” Cullen v. Paine,
Webber, Jackson & Curtis, Inc., 863 F.2d 851, 854
(11th Cir. 1989). In Cullen, the Eleventh Circuit
barred a party opposing confirmation of an arbitral
agreement from raising affirmative defenses, where
that party failed to move to vacate the award within
the limitations period. Id. Although INPROTSA
2

Moreover, unlike the adverse party in Escobar, which had a
subsidiary that conducted regular business in the district, Del
Monte does not have a subsidiary in Florida. Escobar is,
therefore, inapposite.

52a
filed the petition to vacate within the three-month
period limitations period, Cullen’s reasoning applies
to bar INPROTSA from raising affirmative defenses
to the cross-petition for confirmation of the arbitral
award.
To
summarize
the
Court’s
conclusions,
INPROTSA’s affirmative defenses to confirmation of
the arbitral award do not overcome the legal
presumption in favor of confirming arbitral awards.
Even if the Court were to find INPROTSA’s
objections meritorious, this Court finds the objections
untimely.
DONE AND ORDERED in Chambers at Miami,
Florida, this 1st of May 2017.
/s/ Federico A. Moreno
FEDERICO A. MORENO
UNITED STATES DISTRICT
JUDGE
Copies furnished to:
Counsel of record

53a
APPENDIX E
_________
UNITED STATES DISTRICT COURT
SOUTHERN DISTRICT OF FLORIDA
Miami Division
CASE NO.:____________________
INVERSIONES Y PROCESADORA
TROPICAL INPROTSA, S.A., a Costa Rican
Corporation,
Petitioner,
vs.
DEL MONTE INTERNATIONAL GMBH, a
Swiss Corporation,
Respondent.
/
NOTICE OF REMOVAL
Respondent, DEL MONTE INTERNATIONAL
GMBH (hereinafter, “Del Monte”), files this Notice of
Removal pursuant to 9 U.S.C. § 203, 9 U.S.C. § 205,
28 U.S.C. § 1331 and 28 U.S.C. § 1441 and removes
to this Court the civil action captioned Inversiones y
Procesadora Tropical INPROTSA, S.A. v. Del Monte
International GmbH, Case No. 2016-23517 CA 01
(25), originally filed in the Circuit Court of the
Eleventh Judicial Circuit in and for Miami-Dade
County, Florida. The grounds for removal are as
follows:

54a
The State Court Action
1. Petitioner,
INVERSIONES
Y
PROCESADORA TROPICAL INPROTSA, S.A.
(hereinafter, “INPROTSA”), filed a civil action
captioned Inversiones y Procesadora Tropical
INPROTSA, S.A. v. Del Monte International GmbH,
Case No. 2016-23517 CA 01 (25), in the Circuit Court
of the Eleventh Judicial Circuit in and for MiamiDade County, Florida, on September 9, 2016
(hereinafter, the “State Court Action”), which is
embraced by this district and division. Pursuant to
28 U.S.C. §1446(a), attached as Exhibit “A” to this
Notice of Removal is a copy of the Petition to Vacate
Final Arbitral Award filed in the State Court Action
(together with all exhibits), which constitutes all of
the process, pleadings, and orders filed in the State
Court Action. Del Monte has not been served with a
summons or copy of the Petition to Vacate Final
Arbitral Award in accordance with 9 U.S.C. § 12 or
Rule 4, Fed. R. Civ. P., as of the date of this Notice of
Removal.
2. The State Court Action concerns INPROTSA’s
petition to vacate a final international arbitral award
falling under, and governed by, the Convention on
the Recognition and Enforcement of Foreign Arbitral
Awards (hereinafter, the “New York Convention”), 9
U.S.C. § 201, et seq.1 The Eleventh Circuit has held
that international arbitral awards falling under the
New York Convention are governed by federal law
and that federal courts have subject matter
jurisdiction to enforce such awards:
1

A copy of the Final Arbitral Award is attached as Ex. 6 to the
Petition to Vacate Final Arbitral Award.

55a
The
New
York
Convention
is
incorporated into federal law by the
[Federal
Arbitration
Act],
which
governs the enforcement of arbitration
agreements, and of arbitral awards
made pursuant to such agreements, in
federal and state courts. See Allied–
Bruce Terminix Cos., Inc. v. Dobson, 513
U.S. 265, 269-73, 115 S.Ct. 834, 837-39,
130 L.Ed.2d 753 (1995). Chapter 2 of the
Act, 9 U.S.C. §§ 201-208, mandates the
enforcement of the New York Convention
in United States courts. See 9 U.S.C. §
201.
Industrial
Risk
Insurers
v.
M.A.N.
Gutehoffnungshutte GmbH, 141 F.3d 1434, 1440
(11th Cir. 1998) (emphasis supplied).
Removal Jurisdiction
3. “[A] federal district court must have both
removal jurisdiction [under 9 U.S.C. § 205] and
subject matter jurisdiction [under 9 U.S.C. § 203] in
order to preside over a case removed from state court”
under the New York Convention. Holzer v.
Mondadori, 2013 WL 1104269, *6 (S.D.N.Y. Mar. 14,
2013); accord Infuturia Global Ltd. v. Sequus Pharm.,
Inc., 631 F.3d 1133, 1135 n. 1 (9th Cir. 2011) (same).
4. Removal of the State Court Action is proper
under 9 U.S.C. § 205, which provides that a state
court action or proceeding relating to an arbitration
award falling under the New York Convention may
be removed at any time to federal court:
Where the subject matter of an action or
proceeding pending in a State court

56a
relates to an arbitration agreement or
award falling under the Convention, the
defendant or the defendants may, at
any time before the trial thereof,
remove such action or proceeding....
The State Court Action filed by INPROTSA
indisputably relates to an arbitral award falling
under the New York Convention. The arbitral award
is between citizens of foreign states2 and “envisages
performance or enforcement abroad, or has some
other reasonable relation with one or more foreign
states.” 9 U.S.C. § 202; Industrial Risk Insurers, 141
F.3d at 1441 (“arbitral awards not ‘entirely between
citizens of the United States’ [are] “non-domestic” for
purposes of Article I of the Convention” and are
governed by the New York Convention). State court
actions which seek to vacate an arbitral award
governed by the New York Convention are properly
removed under 9 U.S.C. § 205. E.g., Kolel Beth
Yechiel Mechil of Tartikov, Inc. v. YLL Irrevocable
Trust, 863 F. Supp. 2d 351, 356 (S.D.N.Y. 2012)
(removal of state court action that “attempt[s] to
vacate the Arbitration Decision” was proper under 9
U.S.C. § 205).
Removal of the State Court Action is also proper
under 28 U.S.C. § 1441, which provides that “any
civil action brought in a State court of which the
district courts of the United States have original
jurisdiction, may be removed by the defendant or the
defendants, to the district court of the United States
2

INPROTSA is a Costa Rican corporation with its principal
place of business in Costa Rica. Del Monte is a Swiss
corporation with its principal place of business in Switzerland.

57a
for the district and division embracing the place
where such action is pending.” A U.S. district court
would have original jurisdiction over the Petition to
Vacate Final Arbitral Award because such claim
“fall[s] under the [New York] Convention,” 9 U.S.C. §
203, and “aris[es] under the Constitution, laws, or
treaties of the United States,” 28 U.S.C. § 1331. See
discussion infra ¶ 5.
Subject Matter Jurisdiction
5. This Court has subject matter jurisdiction over
the Petition to Vacate Final Arbitral Award
pursuant to 9 U.S.C. § 203. Section 203 states that
“[a]n action or proceeding falling under the
Convention shall be deemed to arise under the laws
and treaties of the United States. The district courts
of the United States... shall have original jurisdiction
over such an action or proceeding, regardless of the
amount in controversy.” 9 U.S.C. § 203.
An action to vacate an arbitral award is deemed
to be an action or proceeding falling under the New
York Convention over which a federal district court
has subject matter jurisdiction pursuant to 9 U.S.C.
§ 203. Costa v. Celebrity Cruises, Inc., 768 F. Supp.
2d 1237, 1240 (S.D. Fla. 2011) (holding that district
court has jurisdiction under 9 U.S.C. § 203 to
consider petition to vacate arbitral award governed
by New York Convention), aff’d, 470 F. App’x 726
(11th Cir. 2012); Scandinavian Reinsurance Co. Ltd.
v. Saint Paul Fire & Marine Ins. Co., 668 F.3d 60, 71
(2d Cir. 2012) (“the district court had subject-matter
jurisdiction under 9 U.S.C. § 203, which provides
federal jurisdiction over actions to confirm or vacate
an arbitral award that is governed by the
Convention on the Recognition and Enforcement of

58a
Foreign Arbitral Awards (the
‘New
York
Convention’)”) (emphasis supplied); Zurich Am. Ins.
Co. v. Team Tankers A.S., 2014 WL 2945803
(S.D.N.Y. Jun. 30, 2014), aff’d, 811 F.3d 584 (2d Cir.
2016) (district court had subject matter jurisdiction
pursuant to 9 U.S.C. § 203 over action filed in
district court to vacate arbitral award governed by
New York Convention); PMA Capital Ins. Co. v.
Platinum Underwriters Bermuda, Ltd., 659 F. Supp.
2d 631, 634-35 (E.D. Pa. 2009) (district court has
subject matter jurisdiction under 9 U.S.C. § 203 to
hear action to vacate arbitral award governed by
New York Convention), aff’d, 400 F. App’x 654 (3d
Cir. 2010); Spector v. Torenberg, 852 F. Supp. 201,
205-06 (S.D.N.Y. 1994) (in action filed in district
court to vacate arbitral award governed by New
York Convention, district court held that it had
jurisdiction under 9 U.S.C. § 203); Kolel Beth
Yechiel Mechil of Tartikov, 863 F. Supp. at 356
(“Since federal courts have subject matter
jurisdiction over actions seeking to vacate arbitral
awards entered in the United States and within the
scope of the Convention, see Scandinavian, 668 F.3d
at 71, the Court would have had subject matter
jurisdiction over the Trust Defendants’ suit had it
initially been filed in federal court.”); Holzer, 2013
WL 1104269, at *6 (“section 203 of the FAA provides
the requisite statutory grant of jurisdiction ... to
actions to compel, confirm, or vacate an arbitral
award”). See also Gonsalvez v. Celebrity Cruises,
Inc., 750 F.3d 1195, 1197 n.1 (11th Cir. 2013) (“we
assume without deciding that the Convention
permits” actions to vacate arbitration awards);
Industrial Risk Insurers, 141 F.3d at 1440
(“Chapter 2 of the Act, 9 U.S.C. §§ 201-208,

59a
mandates the enforcement of the
Convention in United States courts.”).3

New

York

Facts Supporting Jurisdiction
6. The following facts existed at the time of the
filing of this Notice of Removal and when the State
Court Action was commenced in the Florida state
court:
a.

3

A Final Arbitral Award dated June 10,
2016 was issued by the International

The district court in Ingaseosas Int’l Co. v. Aconcagua
Investing Ltd., 2011 WL 500042 (S.D. Fla. Feb. 10, 2011), aff’d
on other grounds, 479 F. App’x 955 (11th Cir. 2012), held that a
federal district court does not have subject matter jurisdiction
over an action originally filed in federal district court to vacate
an arbitral award governed by the New York Convention. Id. at
*5. The Eleventh Circuit affirmed the district court’s dismissal
in Ingaseosas, not because it found an absence of subject matter
jurisdiction, but “upon a different ground” that rendered “the
case [as] moot.” Ingaseosas Int’l Co. v. Aconcagua Investing
Ltd., 479 F. App’x 955, 959 (11th Cir. 2012). Moreover, the
district court decision in Ingaseosas was decided before Costa v.
Celebrity Cruises, Inc., 768 F. Supp. 2d 1237, 1240 (S.D. Fla.
2011), aff’d, 470 F. App’x 726 (11th Cir. 2012), in which the
district court held that it had jurisdiction under 9 U.S.C. § 203
to consider a petition to vacate arbitral award governed by New
York Convention. The district court decision in Ingaseosas was
also decided before the Second Circuit’s holding in
Scandinavian Reinsurance, Co. Ltd. v. Saint Paul Fire &
Marine Ins. Co., 668 F.3d 60, 71 (2d Cir. 2012), which expressly
held that a federal district court has subject matter jurisdiction
over “actions to confirm or vacate an arbitral award that is
governed by the Convention on the Recognition and
Enforcement of Foreign Arbitral Awards (the ‘New York
Convention’).” Id. at 71. See also Gonsalvez v. Celebrity Cruises,
Inc., 750 F.3d 1195 (11th Cir. 2013) (the Eleventh Circuit
holding that “we assume without deciding that the Convention
permits” actions to vacate arbitration awards).

60a
Court of Arbitration of the International
Chamber of Commerce in Case No.
20097/RD in favor of Del Monte and
against INPROTSA. A copy of the Final
Arbitral Award is attached as Ex. 6 to
the Petition to Vacate Final Arbitral
Award. The arbitration was conducted
in Miami, Florida. See Final Arbitral
Award, at 5, § I(aa). INPROTSA moved
for correction and clarification of the
Final Arbitral Award, which was denied
in its entirety by the Arbitral Tribunal
on August 6, 2016. See Decision,
attached as Ex. 12 to Petition to Vacate.
Both INPROTSA and Del Monte are
foreign corporations.
b.

Pursuant to Paragraph 122 of the Final
Arbitral Award, the Arbitral Tribunal
ordered INPROTSA to pay Del Monte
damages
in
the
sum
of
US
$26,133,000.00, arbitral costs of US
$650,000.00, and legal representation
costs and fees of US $2,507,440.54, for a
total amount of US $29,290,440.54,
plus pre-award and post-award interest.
The Arbitral Tribunal also awarded Del
Monte permanent injunctive relief and
ordered INPROTSA to specifically
perform certain covenants in the
parties’ agreement. Id.
Removal Is Timely

7. This Notice of Removal is timely filed in
accordance with 9 U.S.C. § 205, which provides that
“an action or proceeding pending in a State court

61a
[that] relates to an arbitration agreement or award
falling under the Convention” may be removed to
federal court “at any time” before the trial of the
underlying state court action. Since no trial of the
State Court Action has been set or taken place, this
Notice of Removal is timely under 9 U.S.C. § 205.
The Notice of Removal is also timely under 28
U.S.C. §1446(b)(1) since it was filed “within 30 days
after the receipt by the defendant, through service or
otherwise, of a copy of the initial pleading setting
forth the claim for relief upon which such action or
proceeding is based.” Because the State Court action
was filed on September 9, 2016, this Notice of
Removal is timely under 28 U.S.C. §1446(b)(1).
8. As of the date of this Notice of Removal, Del
Monte has not been served with a summons or copy
of the Petition to Vacate Final Arbitral Award.
Compliance with 28 U.S.C. §1446(d)
9. Pursuant to 28 U.S.C. §1446(d), this Notice of
Removal was served upon counsel for Plaintiff, and a
copy of this Notice of Removal will be concurrently
filed with the Clerk of Court of the Circuit Court of
the Eleventh Judicial Circuit in and for Miami-Dade
County, Florida. The giving of such notice to the
State Court “shall effect the removal and the State
court shall proceed no further unless and until the
case is remanded.” 28 U.S.C. § 1446(d).

62a
10. Del Monte reserves the right to amend,
supplement or correct this Notice of Removal as
permitted by law.
Dated: October Respectfully submitted,
7, 2016
By: Brian J. Stack
Brian Stack, Esq.
Fla. Bar No. 476234
Email:
bstack@stackfernandez.com
Lazaro Fernandez, Jr.
Fla. Bar No. 716545
Email:
lfernandez@stackfernandez.com
STACK FERNANDEZ
ANDERSON & HARRIS, P.A.
1001 Brickell Bay Drive
Suite 2650
Miami, Florida 33131
Telephone: 305.371.0001
Facsimile: 305.371.0002
Attorneys for Respondent,
Monte International GmbH

Del

63a
CERTIFICATE OF SERVICE
I HEREBY CERTIFY that on this 7th day of
October 2016 I electronically filed the foregoing
document with the Clerk of Court by using the
CM/ECF system. I further certify that the foregoing
is being served this day upon all counsel of record or
pro se parties identified in the following Service List
in the manner specified, either via transmission of
Notices of Electronic Filing generated by CM/ECF or
in some other authorized manner for those counsel or
parties who are not authorized to receive
electronically Notices of Electronic Filing.
By: s/ Brian J. Stack
Brian J. Stack, Esq.

SERVICE LIST
Richard C. Lorenzo
Email: richard.lorenzo@hoganlovells.com
Alvin F. Lindsay
Email: alvin.lindsay@hoganlovells.com
Juan C. Garcia
Email: juan.garcia@hoganlovells.com
HOGAN LOVELLS US LLP
600 Brickell Avenue
Miami, Florida 33131
Telephone: (305) 459-6500
Facsimile: (305) 459-6550
Attorneys for Petitioner
[Via email and U.S. mail]

64a
APPENDIX F
_________
Convention on the Recognition and
Enforcement of Foreign Arbitral Awards
(New York, 1958)

UNITED NATIONS

65a
The United Nations Commission on
International Trade Law (UNCITRAL) is a
subsidiary body of the General Assembly. It
plays an important role in improving the legal
framework for international trade by preparing
international legislative texts for use by States
in modernizing the law of international trade
and non-legislative texts for use by commercial
parties in negotiating transactions. UNCITRAL
legislative texts address international sale of
goods;
international
commercial
dispute
resolution, including both arbitration and
conciliation; electronic commerce; insolvency,
including cross-border insolvency; international
transport of goods; international payments;
procurement and infrastructure development;
and security interests. Non-legislative texts
include rules for conduct of arbitration and
conciliation proceedings; notes on organizing
and conducting arbitral proceedings; and legal
guides on industrial construction contracts and
countertrade.
Further information may be obtained from:
UNCITRAL secretariat, Vienna International
Centre,
P.O. Box 500, 1400 Vienna, Austria
Telephone: (+43-1) 26060-4060
Telefax: (+43-1) 26060-5813
Internet: www.uncitral.org
E-mail: uncitral@uncitral.org

66a
UNITED NATIONS COMMISSION ON
INTERNATIONAL TRADE LAW

Convention on the Recognition and
Enforcement of Foreign Arbitral Awards
(New York, 1958)

UNITED NATIONS
New York, 2015

67a
NOTE
Symbols
of
United
Nations
documents are composed of capital
letters combined with figures.
Mention of such a symbol indicates a
reference to a United Nations
document.
The publication reproduced here is a
revised version in which part three
of the original publication of 2009
has been removed.
Material in this publication may be
freely quoted or reprinted, but
acknowledgement
is
requested,
together with a copy of the
publication containing the quotation
or reprint.

68a
Contents
Page
Introduction..............................................................1
Part one.

United Nations Conference on
International Commercial
Arbitration, New York, 20 May–10
June 1958..............................................5

Excerpts from the Final Act of the United
Nations Conference on International
Commercial Arbitration....................................5
Convention on the Recognition and
Enforcement of Foreign Arbitral Awards........8
Part two.

Recommendation regarding the
interpretation of article II,
paragraph 2, and article VII,
paragraph 1, of the Convention
on the Recognition and
Enforcement of Foreign Arbitral
Awards.................................................15

General Assembly resolution 61/33 of 4
December 2006…............................................15
Recommendation regarding the interpretation
of article II, paragraph 2, and article VII,
paragraph 1, of the Convention on the
Recognition and Enforcement of Foreign
Arbitral Awards, done in New York, 10
June 1958, adopted by the United Nations
Commission on International Trade Law
on 7 July 2006 at its thirty-ninth session…..17

69a
Introduction
Objectives
Recognizing the growing importance of international
arbitration as a means of settling international
commercial disputes, the Convention on the Recognition and Enforcement of Foreign Arbitral Awards
(the Convention) seeks to provide common legislative
standards for the recognition of arbitration
agreements and court recognition and enforcement of
foreign and non-domestic arbitral awards. The term
“non-domestic” appears to embrace awards which,
although made in the state of enforcement, are
treated as “foreign” under its law because of some
foreign element in the proceedings, e.g. another
State’s procedural laws are applied.
The Convention’s principal aim is that foreign and
non-domestic arbitral awards will not be
discriminated against and it obliges Parties to
ensure such awards are recognized and generally
capable of enforcement in their jurisdiction in the
same way as domestic awards. An ancillary aim of
the Convention is to require courts of Parties to give
full effect to arbitration agreements by requiring
courts to deny the parties access to court in contravention of their agreement to refer the matter to
an arbitral tribunal.
Key provisions
The Convention applies to awards made in any State
other than the State in which recognition and
enforcement is sought. It also applies to awards “not
considered as domestic awards”. When consenting to
be bound by the Convention, a State may declare
that it will apply the Convention (a) in respect to

70a
awards made only in the territory of another Party
and (b) only to legal relationships that are considered
“commercial” under its domestic law.
The Convention contains provisions on arbitration
agreements. This aspect was covered in recognition
of the fact that an award could be refused
enforcement on the grounds that the agreement upon
which it was based might not be recognized. Article
II (1) provides that Parties shall recognize written
arbitration agreements. In that respect, UNCITRAL
adopted, at its thirty-ninth session in 2006, a
Recommendation that seeks to provide guidance to
Parties on the interpretation of the requirement in
article II (2) that an arbitration agreement be in
writing and to encourage application of article VII (1)
to allow any interested party to avail itself of rights
it may have, under the law or treaties of the country
where an arbitration agreement is sought to be relied
upon, to seek recognition of the validity of such an
arbitration agreement.
The central obligation imposed upon Parties is to
recognize all arbitral awards within the scheme as
binding and enforce them, if requested to do so,
under the lex fori. Each Party may determine the
procedural mechanisms that may be followed where
the Convention does not prescribe any requirement.
The Convention defines five grounds upon which
recognition and enforcement may be refused at the
request of the party against whom it is invoked. The
grounds include incapacity of the parties, invalidity
of the arbitration agreement, due process, scope of
the arbitration agreement, jurisdiction of the arbitral
tribunal, setting aside or suspension of an award in
the country in which, or under the law of which, that

71a
award was made. The Convention defines two
additional grounds upon which the court may, on its
own motion, refuse recognition and enforcement of
an award. Those grounds relate to arbitrability and
public policy.
The Convention seeks to encourage recognition and
enforcement of awards in the greatest number of
cases as possible. That purpose is achieved through
article VII (1) of the Convention by removing
conditions for recognition and enforcement in
national laws that are more stringent than the
conditions in the Convention, while allowing the
continued application of any national provisions that
give special or more favourable rights to a party
seeking to enforce an award. That article recognizes
the right of any interested party to avail itself of law
or treaties of the country where the award is sought
to be relied upon, including where such law or
treaties offer a regime more favourable than the
Convention.
Entry into force
The Convention entered into force on 7 June 1959
(article XII).
How to become a party
The Convention is closed for signature. It is subject
to ratification, and is open to accession by any
Member State of the United Nations, any other State
which is a member of any specialized agency of the
United Nations, or is a Party to the Statute of the
International Court of Justice (articles VIII and IX).

72a
Optional and/or mandatory declarations and
notifications
When signing, ratifying or acceding to the
Convention, or notifying a territorial extension under
article X, any State may on the basis of reciprocity
declare that it will apply the Convention to the
recognition and enforcement of awards made only in
the territory of another Party to the Convention. It
may also declare that it will apply the Convention
only to differences arising out of legal relationships,
whether contractual or not, which are considered as
commercial under the national law of the State
making such declaration (article I).
Denunciation/Withdrawal
Any Party may denounce this Convention by a
written notification to the Secretary-General of the
United Nations. Denunciation shall take effect one
year after the date of the receipt of the notification
by the Secretary-General (article XIII).

73a
Part one
UNITED NATIONS CONFERENCE ON
INTERNATIONAL COMMERCIAL ARBITRATION,
NEW YORK, 20 MAY–10 JUNE 1958
Excerpts from the Final Act of the United Nations
Conference on International Commercial Arbitration1
“1.
The Economic and Social Council of the United
Nations, by resolution 604 (XXI) adopted on 3 May
1956, decided to convene a Conference of
Plenipotentiaries for the purpose of concluding a
convention on the recognition and enforcement of
foreign arbitral awards, and to consider other possible measures for increasing the effectiveness of
arbitration in the settlement of private law disputes.
[...]
“12. The Economic and Social Council, by its
resolution convening the Conference, requested it to
conclude a convention on the basis of the draft
convention prepared by the Committee on the
Enforcement of International Arbitral Awards,
taking into account the comments and suggestions
made by Governments and non-governmental
organizations, as well as the discussion at the
twenty-first session of the Council.
“13. On the basis of the deliberations,
in the reports of the working parties
records of the plenary meetings, the
prepared and opened for signature the

1

as recorded
and in the
Conference
Convention

The full text of the Final Act of the United Nations
Conference
on
International
Commercial
Arbitration
(E/CONF.26/8Rev.1) is available at http://www.uncitral.org

74a
on the Recognition and Enforcement of Foreign
Arbitral Awards which is annexed to this Final Act.
[...]
“16. In addition the Conference adopted, on the basis
of proposals made by the Committee on Other
Measures as recorded in its report, the following
resolution:
“The Conference,
“Believing that, in addition to the convention on
the recognition and enforcement of foreign arbitral
awards just concluded, which would contribute to
increasing the effectiveness of arbitration in the
settlement of private law disputes, additional
measures should be taken in this field,
“Having considered the able survey and analysis
of possible measures for increasing the effectiveness
of arbitration in the settlement of private law
disputes prepared by the Secretary-General
(document E/CoNF.26/6),
“Having given particular attention to the
suggestions made therein for possible ways in which
interested governmental and other organizations
may make practical contributions to the more
effective use of arbitration,
“Expresses the following views with respect to the
principal matters dealt with in the note of the
Secretary-General:
“1. It considers that wider diffusion of information
on arbitration laws, practices and facilities
contributes materially to progress in commercial
arbitration; recognizes that work has already been

75a
done in this field by interested organizations,2 and
expresses the wish that such organizations, so far as
they have not concluded them, continue their
activities in this regard, with particular attention to
coordinating their respective efforts;
“2. It recognizes the desirability of encouraging
where necessary the establishment of new
arbitration facilities and the improvement of existing
facilities, particularly in some geographic regions
and branches of trade; and believes that useful work
may be done in this field by appropriate governmental and other organizations, which may be active
in arbitration matters, due regard being given to the
need to avoid duplication of effort and to concentrate
upon those measures of greatest practical benefit to
the regions and branches of trade concerned;
“3. It recognizes the value of technical assistance
in the development of effective arbitral legislation
and institutions; and suggests that interested
Governments and other organizations endeavour to
furnish such assistance, within the means available,
to those seeking it;
“4. It recognizes that regional study groups,
seminars or working parties may in appropriate
circumstances have productive results; believes that
consideration should be given to the advisability of
the convening of such meetings by the appropriate
regional commissions of the United Nations and
other bodies, but regards it as important that any
such action be taken with careful regard to avoiding

2

For example, the Economic Commission for Europe and the
Inter-American Council of Jurists.

76a
duplication and assuring economy of effort and of
resources;
“5. It considers that greater uniformity of
national laws on arbitration would further the
effectiveness of arbitration in the settlement of
private law disputes, notes the work already done in
this field by various existing organizations, 3 and
suggests that by way of supplementing the efforts of
these bodies appropriate attention be given to
defining suitable subject matter for model
arbitration statutes and other appropriate measures
for encouraging the development of such legislation;
“Expresses the wish that the United Nations,
through its appropriate organs, take such steps as it
deems feasible to encourage further study of
measures for increasing the effectiveness of
arbitration in the settlement of private law disputes
through the facilities of existing regional bodies and
non-governmental organizations and through such
other institutions as may be established in the
future;
“Suggests that any such steps be taken in a manner
that will assure proper coordination of effort,
avoidance of duplication and due observance of
budgetary considerations;
“Requests that the Secretary-General submit this
resolution to the appropriate organs of the United
Nations.”

3

For example, the International Institute for the Unification
of Private Law and the Inter-American Council of Jurists.

77a
CONVENTION ON THE RECOGNITION AND
ENFORCEMENT OF FOREIGN ARBITRAL
AWARDS
Article I
1. This Convention shall apply to the recognition
and enforcement of arbitral awards made in the
territory of a State other than the State where the
recognition and enforcement of such awards are
sought, and arising out of differences between
persons, whether physical or legal. It shall also apply
to arbitral awards not considered as domestic awards
in the State where their recognition and enforcement
are sought.
2. The term “arbitral awards” shall include not
only awards made by arbitrators appointed for each
case but also those made by permanent arbitral
bodies to which the parties have submitted.
3. When signing, ratifying or acceding to this
Convention, or notifying extension under article X
hereof, any State may on the basis of reciprocity
declare that it will apply the Convention to the
recognition and enforcement of awards made only in
the territory of another Contracting State. It may
also declare that it will apply the Convention only to
differences arising out of legal relationships, whether
contractual or not, which are considered as
commercial under the national law of the State
making such declaration.
Article II
1. Each Contracting State shall recognize an
agreement in writing under which the parties
undertake to submit to arbitration all or any
differences which have arisen or which may arise

78a
between them in respect of a defined legal
relationship, whether contractual or not, concerning
a subject matter capable of settlement by arbitration.
2. The term “agreement in writing” shall include
an arbitral clause in a contract or an arbitration
agreement, signed by the parties or contained in an
exchange of letters or telegrams.
3. The court of a Contracting State, when seized
of an action in a matter in respect of which the
parties have made an agreement within the meaning
of this article, shall, at the request of one of the
parties, refer the parties to arbitration, unless it
finds that the said agreement is null and void,
inoperative or incapable of being performed.
Article III
Each Contracting State shall recognize arbitral
awards as binding and enforce them in accordance
with the rules of procedure of the territory where the
award is relied upon, under the conditions laid down
in the following articles. There shall not be imposed
substantially more onerous conditions or higher fees
or charges on the recognition or enforcement of
arbitral awards to which this Convention applies
than are imposed on the recognition or enforcement
of domestic arbitral awards.
Article IV
1. To obtain the recognition and enforcement
mentioned in the preceding article, the party
applying for recognition and enforcement shall, at
the time of the application, supply:
(a)
The duly authenticated original award
or a duly certified copy thereof;

79a
(b)
The original agreement referred to in
article II or a duly certified copy thereof.
2. If the said award or agreement is not made in
an official language of the country in which the
award is relied upon, the party applying for
recognition and enforcement of the award shall
produce a translation of these documents into such
language. The translation shall be certified by an
official or sworn translator or by a diplomatic or
consular agent.
Article V
1. Recognition and enforcement of the award
may be refused, at the request of the party against
whom it is invoked, only if that party furnishes to
the competent authority where the recognition and
enforcement is sought, proof that:
(a)
The parties to the agreement referred to
in article II were, under the law applicable to them,
under some incapacity, or the said agreement is not
valid under the law to which the parties have
subjected it or, failing any indication thereon, under
the law of the country where the award was made; or
(b)
The party against whom the award is
invoked was not given proper notice of the
appointment of the arbitrator or of the arbitration
proceedings or was otherwise unable to present his
case; or
(c)
The award deals with a difference not
contemplated by or not falling within the terms of
the submission to arbitration, or it contains decisions
on matters beyond the scope of the submission to
arbitration, provided that, if the decisions on matters
submitted to arbitration can be separated from those

80a
not so submitted, that part of the award which
contains decisions on matters submitted to
arbitration may be recognized and enforced; or
(d)
The composition of the arbitral
authority or the arbitral procedure was not in
accordance with the agreement of the parties, or,
failing such agreement, was not in accordance with
the law of the country where the arbitration took
place; or
(e)
The award has not yet become binding
on the parties, or has been set aside or suspended by
a competent authority of the country in which, or
under the law of which, that award was made.
2. Recognition and enforcement of an arbitral
award may also be refused if the competent
authority in the country where recognition and
enforcement is sought finds that:
(a)
The subject matter of the difference is
not capable of settlement by arbitration under the
law of that country; or
(b)
The recognition or enforcement of the
award would be contrary to the public policy of that
country.
Article VI
If an application for the setting aside or
suspension of the award has been made to a
competent authority referred to in article V (1) (e),
the authority before which the award is sought to be
relied upon may, if it considers it proper, adjourn the
decision on the enforcement of the award and may
also, on the application of the party claiming
enforcement of the award, order the other party to
give suitable security.

81a
Article VII
1. The provisions of the present Convention shall
not affect the validity of multilateral or bilateral
agreements concerning the recognition and
enforcement of arbitral awards entered into by the
Contracting States nor deprive any interested party
of any right he may have to avail himself of an
arbitral award in the manner and to the extent
allowed by the law or the treaties of the country
where such award is sought to be relied upon.
2. The Geneva Protocol on Arbitration Clauses of
1923 and the Geneva Convention on the Execution of
Foreign Arbitral Awards of 1927 shall cease to have
effect between Contracting States on their becoming
bound and to the extent that they become bound, by
this Convention.
Article VIII
1. This Convention shall be open until 31
December 1958 for signature on behalf of any
Member of the United Nations and also on behalf of
any other State which is or hereafter becomes a
member of any specialized agency of the United
Nations, or which is or hereafter becomes a party to
the Statute of the International Court of Justice, or
any other State to which an invitation has been
addressed by the General Assembly of the United
Nations.
2. This Convention shall be ratified and the
instrument of ratification shall be deposited with the
Secretary-General of the United Nations.
Article IX
1. This Convention shall be open for accession to
all States referred to in article VIII.

82a
2. Accession shall be effected by the deposit of an
instrument of accession with the Secretary-General
of the United Nations.
Article X
1. Any State may, at the time of signature,
ratification or accession, declare that this Convention
shall extend to all or any of the territories for the
international relations of which it is responsible.
Such a declaration shall take effect when the
Convention enters into force for the State concerned.
2. At any time thereafter any such extension
shall be made by notification addressed to the
Secretary-General of the United Nations and shall
take effect as from the ninetieth day after the day of
receipt by the Secretary-General of the United
Nations of this notification, or as from the date of
entry into force of the Convention for the State
concerned, whichever is the later.
3. With respect to those territories to which this
Convention is not extended at the time of signature,
ratification or accession, each State concerned shall
consider the possibility of taking the necessary steps
in order to extend the application of this Convention
to such territories, subject, where necessary for
constitutional reasons, to the consent of the Governments of such territories.
Article XI
In the case of a federal or non-unitary State, the
following provisions shall apply:
(a)
With respect
Convention that come
jurisdiction of the federal
of the federal Government

to those articles of this
within the legislative
authority, the obligations
shall to this extent be the

83a
same as those of Contracting States which are not
federal States;
(b)
With respect to those articles of this
Convention that come within the legislative
jurisdiction of constituent states or provinces which
are not, under the constitutional system of the
federation, bound to take legislative action, the
federal Government shall bring such articles with a
favourable recommendation to the notice of the
appropriate authorities of constituent states or
provinces at the earliest possible moment;
(c)
A federal State Party to this Convention
shall, at the request of any other Contracting State
transmitted through the Secretary-General of the
United Nations, supply a statement of the law and
practice of the federation and its constituent units in
regard to any particular provision of this Convention,
showing the extent to which effect has been given to
that provision by legislative or other action.
Article XII
1. This Convention shall come into force on the
ninetieth day following the date of deposit of the
third instrument of ratification or accession.
2. For each State ratifying or acceding to this
Convention after the deposit of the third instrument
of ratification or accession, this Convention shall
enter into force on the ninetieth day after deposit by
such State of its instrument of ratification or
accession.
Article XIII
1. Any Contracting State may denounce this
Convention by a written notification to the
Secretary-General
of
the
United
Nations.

84a
Denunciation shall take effect one year after the date
of receipt of the notification by the SecretaryGeneral.
2. Any State which has made a declaration or
notification under article X may, at any time
thereafter, by notification to the Secretary-General of
the United Nations, declare that this Convention
shall cease to extend to the territory concerned one
year after the date of the receipt of the notification
by the Secretary-General.
3. This Convention shall continue to be
applicable to arbitral awards in respect of which
recognition or enforcement proceedings have been
instituted before the denunciation takes effect.
Article XIV
A Contracting State shall not be entitled to avail
itself of the present Convention against other
Contracting States except to the extent that it is
itself bound to apply the Convention.
Article XV
The Secretary-General of the United Nations
shall notify the States contemplated in article VIII of
the following:
(a)
Signatures
and
accordance with article VIII;
(b)

ratifications

in

Accessions in accordance with article

IX;
(c)
Declarations and notifications under
articles I, X and XI;
(d)
The date upon which this Convention
enters into force in accordance with article XII;

85a
(e)
Denunciations and
accordance with article XIII.

notifications

in

Article XVI
1. This Convention, of which the Chinese,
English, French, Russian and Spanish texts shall be
equally authentic, shall be deposited in the archives
of the United Nations.
2. The Secretary-General of the United Nations
shall transmit a certified copy of this Convention to
the States contemplated in article VIII.

86a
Part two
RECOMMENDATION REGARDING THE
INTERPRETATION OF ARTICLE II, PARAGRAPH
2, AND ARTICLE VII, PARAGRAPH 1, OF THE
CONVENTION ON THE RECOGNITION AND
ENFORCEMENT OF FOREIGN ARBITRAL
AWARDS
General Assembly resolution 61/33
of 4 December 2006
The General Assembly,
Recognizing the value of arbitration as a method
of settling disputes arising in the context of
international commercial relations,
Recalling its resolution 40/72 of 11 December
1985 regarding the Model Law on International
Commercial Arbitration,1
Recognizing the need for provisions in the Model
Law to conform to current practices in international
trade and modern means of contracting with regard
to the form of the arbitration agreement and the
granting of interim measures,
Believing that revised articles of the Model Law
on the form of the arbitration agreement and interim
measures reflecting those current practices will
significantly enhance the operation of the Model
Law,
Noting that the preparation of the revised articles
of the Model Law on the form of the arbitration
agreement and interim measures was the subject of
1

Official Records of the General Assembly, Fortieth Session,
Supplement No. 17 (A/40/17), annex I.

87a
due deliberation and extensive consultations with
Governments and interested circles and would
contribute significantly to the establishment of a
harmonized legal framework for a fair and efficient
settlement of international commercial disputes,
Believing that, in connection with the
modernization of articles of the Model Law, the
promotion of a uniform interpretation and
application of the Convention on the Recognition and
Enforcement of Foreign Arbitral Awards, done at
New York, 10 June 1958,2 is particularly timely,
1. Expresses its appreciation to the United
Nations Commission on International Trade Law for
formulating and adopting the revised articles of its
Model Law on International Commercial Arbitration
on the form of the arbitration agreement and interim
measures, the text of which is contained in annex I to
the report of the United Nations Commission on
International Trade Law on the work of its thirtyninth session,3 and recommends that all States give
favourable consideration to the enactment of the
revised articles of the Model Law, or the revised
Model Law on International Commercial Arbitration
of the United Nations Commission on International
Trade Law, when they enact or revise their laws, in
view of the desirability of uniformity of the law of
arbitral procedures and the specific needs of
international commercial arbitration practice;
2. Also expresses its appreciation to the United
Nations Commission on International Trade Law for
2
3

United Nations, Treaty Series, vol. 330, No. 4739.

Official Records of the General Assembly, Sixty-first
Session, Supplement No. 17 (A/61/17).

88a
formulating and adopting the recommendation
regarding the interpretation of article II, paragraph
2, and article VII, paragraph 1, of the Convention on
the Recognition and Enforcement of Foreign Arbitral
Awards, done at New York, 10 June 1958,2 the text of
which is contained in annex II to the report of the
United Nations Commission on International Trade
Law on the work of its thirty-ninth session;3
3. Requests the Secretary-General to make all
efforts to ensure that the revised articles of the
Model Law and the recommendation become
generally known and available.
64th plenary meeting
4 December 2006
RECOMMENDATION REGARDING THE
INTERPRETATION OF ARTICLE II, PARAGRAPH
2, AND ARTICLE VII, PARAGRAPH 1, OF THE
CONVENTION ON THE RECOGNITION AND
ENFORCEMENT OF FOREIGN ARBITRAL
AWARDS, DONE IN NEW YORK, 10 JUNE 1958,
ADOPTED BY THE UNITED NATIONS
COMMISSION ON INTERNATIONAL TRADE LAW
ON 7 JULY 2006
AT ITS THIRTY-NINTH SESSION
The United Nations Commission on International
Trade Law,
Recalling General Assembly resolution 2205
(XXI) of 17 December 1966, which established the
United Nations Commission on International Trade
Law with the object of promoting the progressive
harmonization and unification of the law of
international trade by, inter alia, promoting ways

89a
and means of ensuring a uniform interpretation and
application of international conventions and uniform
laws in the field of the law of international trade,
Conscious of the fact that the different legal,
social and economic systems of the world, together
with different levels of development, are represented
in the Commission,
Recalling successive resolutions of the General
Assembly reaffirming the mandate of the
Commission as the core legal body within the United
Nations system in the field of international trade law
to coordinate legal activities in this field,
Convinced that the wide adoption of the
Convention on the Recognition and Enforcement of
Foreign Arbitral Awards, done in New York on 10
June 1958,4 has been a significant achievement in
the promotion of the rule of law, particularly in the
field of international trade,
Recalling that the Conference of Plenipotentiaries
which prepared and opened the Convention for
signature adopted a resolution, which states, inter
alia, that the Conference “considers that greater
uniformity of national laws on arbitration would
further the effectiveness of arbitration in the
settlement of private law disputes”,
Bearing in mind differing interpretations of the
form requirements under the Convention that result
in part from differences of expression as between the
five equally authentic texts of the Convention,
Taking into account article VII, paragraph 1, of
the Convention, a purpose of which is to enable the
4

United Nations, Treaty Series, vol. 330, No. 4739.

90a
enforcement of foreign arbitral awards to the
greatest extent, in particular by recognizing the right
of any interested party to avail itself of law or
treaties of the country where the award is sought to
be relied upon, including where such law or treaties
offer a regime more favourable than the Convention,
Considering the wide use of electronic commerce,
Taking
into
account
international
legal
instruments, such as the 1985 UNCITRAL Model
Law on International Commercial Arbitration, 5 as
subsequently revised, particularly with respect to
article 7,6 the UNCITRAL Model Law on Electronic
Commerce, 7 the UNCITRAL Model Law on
Electronic Signatures 8 and the United Nations
Convention on the Use of Electronic Communications
in International Contracts,9
Taking into account also enactments of domestic
legislation, as well as case law, more favourable than
the Convention in respect of form requirement

5

Official Records of the General Assembly, Fortieth Session,
Supplement No. 17 (A/40/17), annex I, and United Nations
publication, Sales No. E.95.V.18.
6

Ibid., Sixty-first Session, Supplement No. 17 (A/61/17),
annex I.
7

Ibid., Fifty-first Session, Supplement No. 17 (A/51/17),
annex I, and United Nations publication, Sales No. E.99.V.4,
which contains also an additional article 5 bis, adopted in 1998,
and the accompanying Guide to Enactment.
8

Ibid., Fifty-sixth Session, Supplement No. 17 and
corrigendum (A/56/17 and Corr.3), annex II, and United
Nations publication, Sales No. E.02.V.8, which contains also the
accompanying Guide to Enactment.
9

General Assembly resolution 60/21, annex.

91a
governing arbitration agreements, arbitration
proceedings and the enforcement of arbitral awards,
Considering that, in interpreting the Convention,
regard is to be had to the need to promote
recognition and enforcement of arbitral awards,
1. Recommends that article II, paragraph 2, of
the Convention on the Recognition and Enforcement
of Foreign Arbitral Awards, done in New York, 10
June 1958, be applied recognizing that the
circumstances described therein are not exhaustive;
2. Recommends also that article VII, paragraph
1, of the Convention on the Recognition and
Enforcement of Foreign Arbitral Awards, done in
New York, 10 June 1958, should be applied to allow
any interested party to avail itself of rights it may
have, under the law or treaties of the country where
an arbitration agreement is sought to be relied upon,
to seek recognition of the validity of such an
arbitration agreement.

92a
APPENDIX G
_________
United States Code
Title 9. Arbitration
Chapter 1. General Provisions
9 U.S.C.A. § 1
§ 1. “Maritime transactions” and “commerce”
defined; exceptions to operation of title
“Maritime transactions”, as herein defined, means
charter parties, bills of lading of water carriers,
agreements relating to wharfage, supplies furnished
vessels or repairs to vessels, collisions, or any other
matters in foreign commerce which, if the subject of
controversy, would be embraced within admiralty
jurisdiction; “commerce”, as herein defined, means
commerce among the several States or with foreign
nations, or in any Territory of the United States or in
the District of Columbia, or between any such
Territory and another, or between any such Territory
and any State or foreign nation, or between the
District of Columbia and any State or Territory or
foreign nation, but nothing herein contained shall
apply to contracts of employment of seamen, railroad
employees, or any other class of workers engaged in
foreign or interstate commerce.
(July 30, 1947, c. 392, 61 Stat. 670.)

93a
9 U.S.C.A. § 2
§ 2. Validity, irrevocability, and enforcement of
agreements to arbitrate
A written provision in any maritime transaction or a
contract evidencing a transaction involving
commerce to settle by arbitration a controversy
thereafter arising out of such contract or transaction,
or the refusal to perform the whole or any part
thereof, or an agreement in writing to submit to
arbitration an existing controversy arising out of
such a contract, transaction, or refusal, shall be
valid, irrevocable, and enforceable, save upon such
grounds as exist at law or in equity for the revocation
of any contract.
(July 30, 1947, c. 392, 61 Stat. 670.)

9 U.S.C.A. § 3
§ 3. Stay of proceedings where issue therein
referable to arbitration
If any suit or proceeding be brought in any of the
courts of the United States upon any issue referable
to arbitration under an agreement in writing for
such arbitration, the court in which such suit is
pending, upon being satisfied that the issue involved
in such suit or proceeding is referable to arbitration
under such an agreement, shall on application of one
of the parties stay the trial of the action until such
arbitration has been had in accordance with the
terms of the agreement, providing the applicant for

94a
the stay is not in default in proceeding with such
arbitration.
(July 30, 1947, c. 392, 61 Stat. 670.)

9 U.S.C.A. § 4
§ 4. Failure to arbitrate under agreement; petition
to United States court having jurisdiction for order
to compel arbitration; notice and service thereof;
hearing and determination
A party aggrieved by the alleged failure, neglect, or
refusal of another to arbitrate under a written
agreement for arbitration may petition any United
States district court which, save for such agreement,
would have jurisdiction under title 28, in a civil
action or in admiralty of the subject matter of a suit
arising out of the controversy between the parties,
for an order directing that such arbitration proceed
in the manner provided for in such agreement. Five
days’ notice in writing of such application shall be
served upon the party in default. Service thereof
shall be made in the manner provided by the Federal
Rules of Civil Procedure. The court shall hear the
parties, and upon being satisfied that the making of
the agreement for arbitration or the failure to comply
therewith is not in issue, the court shall make an
order directing the parties to proceed to arbitration
in accordance with the terms of the agreement. The
hearing and proceedings, under such agreement,
shall be within the district in which the petition for
an order directing such arbitration is filed. If the
making of the arbitration agreement or the failure,

95a
neglect, or refusal to perform the same be in issue,
the court shall proceed summarily to the trial
thereof. If no jury trial be demanded by the party
alleged to be in default, or if the matter in dispute is
within admiralty jurisdiction, the court shall hear
and determine such issue. Where such an issue is
raised, the party alleged to be in default may, except
in cases of admiralty, on or before the return day of
the notice of application, demand a jury trial of such
issue, and upon such demand the court shall make
an order referring the issue or issues to a jury in the
manner provided by the Federal Rules of Civil
Procedure, or may specially call a jury for that
purpose. If the jury find that no agreement in writing
for arbitration was made or that there is no default
in proceeding thereunder, the proceeding shall be
dismissed. If the jury find that an agreement for
arbitration was made in writing and that there is a
default in proceeding thereunder, the court shall
make an order summarily directing the parties to
proceed with the arbitration in accordance with the
terms thereof.
(July 30, 1947, c. 392, 61 Stat. 671; Sept. 3, 1954, c.
1263, § 19, 68 Stat. 1233.)

9 U.S.C.A. § 5
§ 5. Appointment of arbitrators or umpire
If in the agreement provision be made for a method
of naming or appointing an arbitrator or arbitrators
or an umpire, such method shall be followed; but if
no method be provided therein, or if a method be

96a
provided and any party thereto shall fail to avail
himself of such method, or if for any other reason
there shall be a lapse in the naming of an arbitrator
or arbitrators or umpire, or in filling a vacancy, then
upon the application of either party to the
controversy the court shall designate and appoint an
arbitrator or arbitrators or umpire, as the case may
require, who shall act under the said agreement with
the same force and effect as if he or they had been
specifically named therein; and unless otherwise
provided in the agreement the arbitration shall be by
a single arbitrator.
(July 30, 1947, c. 392, 61 Stat. 671.)

9 U.S.C.A. § 6
§ 6. Application heard as motion
Any application to the court hereunder shall be made
and heard in the manner provided by law for the
making and hearing of motions, except as otherwise
herein expressly provided.
(July 30, 1947, c. 392, 61 Stat. 671.)

9 U.S.C.A. § 7
§ 7. Witnesses before arbitrators; fees; compelling
attendance
The arbitrators selected either as prescribed in this

97a
title or otherwise, or a majority of them, may
summon in writing any person to attend before them
or any of them as a witness and in a proper case to
bring with him or them any book, record, document,
or paper which may be deemed material as evidence
in the case. The fees for such attendance shall be the
same as the fees of witnesses before masters of the
United States courts. Said summons shall issue in
the name of the arbitrator or arbitrators, or a
majority of them, and shall be signed by the
arbitrators, or a majority of them, and shall be
directed to the said person and shall be served in the
same manner as subpoenas to appear and testify
before the court; if any person or persons so
summoned to testify shall refuse or neglect to obey
said summons, upon petition the United States
district court for the district in which such
arbitrators, or a majority of them, are sitting may
compel the attendance of such person or persons
before said arbitrator or arbitrators, or punish said
person or persons for contempt in the same manner
provided by law for securing the attendance of
witnesses or their punishment for neglect or refusal
to attend in the courts of the United States.
(July 30, 1947, c. 392, 61 Stat. 672; Oct. 31, 1951, c.
655, § 14, 65 Stat. 715.)

98a
9 U.S.C.A. § 8
§ 8. Proceedings begun by libel in admiralty and
seizure of vessel or property
If the basis of jurisdiction be a cause of action
otherwise
justiciable
in
admiralty,
then,
notwithstanding anything herein to the contrary, the
party claiming to be aggrieved may begin his
proceeding hereunder by libel and seizure of the
vessel or other property of the other party according
to the usual course of admiralty proceedings, and the
court shall then have jurisdiction to direct the
parties to proceed with the arbitration and shall
retain jurisdiction to enter its decree upon the
award.
(July 30, 1947, c. 392, 61 Stat. 672.)

9 U.S.C.A. § 9
§ 9. Award of arbitrators; confirmation;
jurisdiction; procedure
If the parties in their agreement have agreed that a
judgment of the court shall be entered upon the
award made pursuant to the arbitration, and shall
specify the court, then at any time within one year
after the award is made any party to the arbitration
may apply to the court so specified for an order
confirming the award, and thereupon the court must
grant such an order unless the award is vacated,
modified, or corrected as prescribed in sections 10

99a
and 11 of this title. If no court is specified in the
agreement of the parties, then such application may
be made to the United States court in and for the
district within which such award was made. Notice
of the application shall be served upon the adverse
party, and thereupon the court shall have
jurisdiction of such party as though he had appeared
generally in the proceeding. If the adverse party is a
resident of the district within which the award was
made, such service shall be made upon the adverse
party or his attorney as prescribed by law for service
of notice of motion in an action in the same court. If
the adverse party shall be a nonresident, then the
notice of the application shall be served by the
marshal of any district within which the adverse
party may be found in like manner as other process
of the court.
(July 30, 1947, c. 392, 61 Stat. 672.)

9 U.S.C.A. § 10
§ 10. Same; vacation; grounds; rehearing
Effective: May 7, 2002
(a) In any of the following cases the United States
court in and for the district wherein the award was
made may make an order vacating the award upon
the application of any party to the arbitration-(1) where the award was procured by corruption,
fraud, or undue means;
(2)

where

there

was

evident

partiality

or

100a
corruption in the arbitrators, or either of them;
(3) where the arbitrators were guilty of
misconduct in refusing to postpone the hearing,
upon sufficient cause shown, or in refusing to
hear evidence pertinent and material to the
controversy; or of any other misbehavior by which
the rights of any party have been prejudiced; or
(4) where the arbitrators exceeded their powers,
or so imperfectly executed them that a mutual,
final, and definite award upon the subject matter
submitted was not made.
(b) If an award is vacated and the time within which
the agreement required the award to be made has
not expired, the court may, in its discretion, direct a
rehearing by the arbitrators.
(c) The United States district court for the district
wherein an award was made that was issued
pursuant to section 580 of title 5 may make an order
vacating the award upon the application of a person,
other than a party to the arbitration, who is
adversely affected or aggrieved by the award, if the
use of arbitration or the award is clearly inconsistent
with the factors set forth in section 572 of title 5.
(July 30, 1947, c. 392, 61 Stat. 672; Pub.L. 101-552,
§ 5, Nov. 15, 1990, 104 Stat. 2745; Pub.L. 102-354, §
5(b)(4), Aug. 26, 1992, 106 Stat. 946; Pub.L. 107-169,
§ 1, May 7, 2002, 116 Stat. 132.)

101a
9 U.S.C.A. § 11
§ 11. Same; modification or correction; grounds;
order
In either of the following cases the United States
court in and for the district wherein the award was
made may make an order modifying or correcting the
award upon the application of any party to the
arbitration-(a) Where there was an evident material
miscalculation of figures or an evident material
mistake in the description of any person, thing, or
property referred to in the award.
(b) Where the arbitrators have awarded upon a
matter not submitted to them, unless it is a matter
not affecting the merits of the decision upon the
matter submitted.
(c) Where the award is imperfect in matter of form
not affecting the merits of the controversy.
The order may modify and correct the award, so as
to effect the intent thereof and promote justice
between the parties.
(July 30, 1947, c. 392, 61 Stat. 673.)

102a
9 U.S.C.A. § 12
§ 12. Notice of motions to vacate or modify; service;
stay of proceedings
Notice of a motion to vacate, modify, or correct an
award must be served upon the adverse party or his
attorney within three months after the award is filed
or delivered. If the adverse party is a resident of the
district within which the award was made, such
service shall be made upon the adverse party or his
attorney as prescribed by law for service of notice of
motion in an action in the same court. If the adverse
party shall be a nonresident then the notice of the
application shall be served by the marshal of any
district within which the adverse party may be found
in like manner as other process of the court. For the
purposes of the motion any judge who might make
an order to stay the proceedings in an action brought
in the same court may make an order, to be served
with the notice of motion, staying the proceedings of
the adverse party to enforce the award.
(July 30, 1947, c. 392, 61 Stat. 673.)

9 U.S.C.A. § 13
§ 13. Papers filed with order on motions; judgment;
docketing; force and effect; enforcement
The party moving for an order confirming, modifying,
or correcting an award shall, at the time such order
is filed with the clerk for the entry of judgment

103a
thereon, also file the following papers with the clerk:
(a) The agreement; the selection or appointment, if
any, of an additional arbitrator or umpire; and each
written extension of the time, if any, within which to
make the award.
(b) The award.
(c) Each notice, affidavit, or other paper used upon
an application to confirm, modify, or correct the
award, and a copy of each order of the court upon
such an application.
The judgment shall be docketed as if it was rendered
in an action.
The judgment so entered shall have the same force
and effect, in all respects, as, and be subject to all the
provisions of law relating to, a judgment in an action;
and it may be enforced as if it had been rendered in
an action in the court in which it is entered.
(July 30, 1947, c. 392, 61 Stat. 673.)

9 U.S.C.A. § 14
§ 14. Contracts not affected
This title shall not apply to contracts made prior to
January 1, 1926.
(July 30, 1947, c. 392, 61 Stat. 674.)

104a
9 U.S.C.A. § 15
§ 15. Inapplicability of the Act of State doctrine
Enforcement of arbitral agreements, confirmation of
arbitral awards, and execution upon judgments
based on orders confirming such awards shall not be
refused on the basis of the Act of State doctrine.
(Added Pub.L. 100-669, § 1, Nov. 16, 1988, 102 Stat.
3969.)

9 U.S.C.A. § 16
§ 16. Appeals
(a) An appeal may be taken from-(1) an order-(A) refusing a stay of any action under
section 3 of this title,
(B) denying a petition under section 4 of
this title to order arbitration to proceed,
(C) denying an application under section
206 of this title to compel arbitration,
(D) confirming or denying confirmation of
an award or partial award, or
(E) modifying, correcting, or vacating an
award;
(2) an interlocutory order granting, continuing,
or modifying an injunction against an arbitration
that is subject to this title; or

105a
(3) a final decision with respect
arbitration that is subject to this title.

to

an

(b) Except as otherwise provided in section 1292(b)
of title 28, an appeal may not be taken from an
interlocutory order-(1) granting a stay of any action under section 3
of this title;
(2) directing arbitration to proceed under
section 4 of this title;
(3) compelling arbitration under section 206 of
this title; or
(4) refusing to enjoin an arbitration that is
subject to this title.
(Added Pub.L. 100-702, Title X, § 1019(a), Nov. 19,
1988, 102 Stat. 4670, § 15; renumbered § 16, Pub.L.
101-650, Title III, § 325(a)(1), Dec. 1, 1990, 104 Stat.
5120.)

106a
United States Code
Title 9. Arbitration
Chapter 2. Convention on the Recognition and
Enforcement of Foreign Arbitral Awards
9 U.S.C.A. § 201
§ 201. Enforcement of Convention
The Convention on the Recognition and Enforcement
of Foreign Arbitral Awards of June 10, 1958, shall be
enforced in United States courts in accordance with
this chapter.
(Added Pub.L. 91-368, § 1, July 31, 1970, 84 Stat.
692.)

9 U.S.C.A. § 202
§ 202. Agreement or award falling under the
Convention
An arbitration agreement or arbitral award arising
out of a legal relationship, whether contractual or
not, which is considered as commercial, including a
transaction, contract, or agreement described in
section 2 of this title, falls under the Convention. An
agreement or award arising out of such a
relationship which is entirely between citizens of the
United States shall be deemed not to fall under the
Convention unless that relationship involves
property located abroad, envisages performance or
enforcement abroad, or has some other reasonable

107a
relation with one or more foreign states. For the
purpose of this section a corporation is a citizen of
the United States if it is incorporated or has its
principal place of business in the United States.
(Added Pub.L. 91-368, § 1, July 31, 1970, 84 Stat.
692.)

9 U.S.C.A. § 203
§ 203. Jurisdiction; amount in controversy
An action or proceeding falling under the Convention
shall be deemed to arise under the laws and treaties
of the United States. The district courts of the
United States (including the courts enumerated in
section 460 of title 28) shall have original jurisdiction
over such an action or proceeding, regardless of the
amount in controversy.
(Added Pub.L. 91-368, § 1, July 31, 1970, 84 Stat.
692.)

9 U.S.C.A. § 204
§ 204. Venue
An action or proceeding over which the district
courts have jurisdiction pursuant to section 203 of
this title may be brought in any such court in which
save for the arbitration agreement an action or

108a
proceeding with respect to the controversy between
the parties could be brought, or in such court for the
district and division which embraces the place
designated in the agreement as the place of
arbitration if such place is within the United States.
(Added Pub.L. 91-368, § 1, July 31, 1970, 84 Stat.
692.)

9 U.S.C.A. § 205
§ 205. Removal of cases from State courts
Where the subject matter of an action or proceeding
pending in a State court relates to an arbitration
agreement or award falling under the Convention,
the defendant or the defendants may, at any time
before the trial thereof, remove such action or
proceeding to the district court of the United States
for the district and division embracing the place
where the action or proceeding is pending. The
procedure for removal of causes otherwise provided
by law shall apply, except that the ground for
removal provided in this section need not appear on
the face of the complaint but may be shown in the
petition for removal. For the purposes of Chapter 1 of
this title any action or proceeding removed under
this section shall be deemed to have been brought in
the district court to which it is removed.
(Added Pub.L. 91-368, § 1, July 31, 1970, 84 Stat.
692.)

109a
9 U.S.C.A. § 206
§ 206. Order to compel arbitration; appointment of
arbitrators
A court having jurisdiction under this chapter may
direct that arbitration be held in accordance with the
agreement at any place therein provided for, whether
that place is within or without the United States.
Such court may also appoint arbitrators in
accordance with the provisions of the agreement.
(Added Pub.L. 91-368, § 1, July 31, 1970, 84 Stat.
693.)
9 U.S.C.A. § 207
§ 207. Award of arbitrators; confirmation;
jurisdiction; proceeding
Within three years after an arbitral award falling
under the Convention is made, any party to the
arbitration may apply to any court having
jurisdiction under this chapter for an order
confirming the award as against any other party to
the arbitration. The court shall confirm the award
unless it finds one of the grounds for refusal or
deferral of recognition or enforcement of the award
specified in the said Convention.
(Added Pub.L. 91-368, § 1, July 31, 1970, 84 Stat.
693.)

110a
9 U.S.C.A. § 208
§ 208. Chapter 1; residual application
Chapter 1 applies to actions and proceedings brought
under this chapter to the extent that chapter is not
in conflict with this chapter or the Convention as
ratified by the United States.
(Added Pub.L. 91-368, § 1, July 31, 1970, 84 Stat.
693.)

